Case: 18-3702

Filed: 01/11/2021

Document: 45

Pages: 23

3ln tl|c

Mmitb finite (Heart af JVjjpeafa
3for tfyc jicUcntfy Circuit
No. 18-3702
Russell Armfield,
Petitioner-Appellant,
v.
Sonja Nicklaus, Warden,
Respondent-Appellee.

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. l:17-cv-03331 — Thomas M. Durkin, Judge.

Argued October 30,2020 — Decided January 11,2021

Before Manion, Rovner, and Scudder, Circuit Judges.
Manion, Circuit Judge. Russell Armfield, along with Kimothy Randall and Tyrene Nelson, was charged with first-de­
gree murder in Illinois state court for the 2004 shooting death
of A1 Copeland in southwest Chicago.
The jury convicted Armfield. He appealed the conviction
on the grounds that a transcript disclosed inadvertently to the
jury violated his constitutional rights under the Sixth

APRtndiX A

Case: 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

2

Amendment's Confrontation Clause. He lost. He then pur­
sued a collateral attack in state court alleging ineffective assis­
tance of counsel. He lost again. He then filed for federal ha­
beas relief via 28 U.S.C. § 2254. The district court denied relief
and Armfield appeals.
Although Armfield's positions have been well briefed and
argued by appointed counsel, we affirm denial of habeas re­
lief on Armfield's Confrontation Clause claim because the
state's strong case against him renders any constitutional er­
ror harmless. We also reject Armfield's ineffective assistance
claim; he cannot show trial counsel's shortcomings resulted
in prejudice.
I. Background
Around 6:00 pm on August 17, 2004, Kimothy Randall
opened fire on A1 Copeland's vehicle while Copeland drove
by. Copeland's car was struck by gunfire, as was a bystander's
vehicle. No one was injured. Russell Armfield and Tyrene
Nelson were present.
Later that evening, between 8:00 and 9:00 pm, while riding
with Armfield and Nelson in a car driven by Randall's girl­
friend, Randall spotted Copeland again. Randall told his girl­
friend to drive to his residence, where Armfield and Nelson
armed themselves. They tracked down Copeland as he drove
away from his own girlfriend's home.' As Copeland ap­
proached an intersection, Randall gave the signal: shoot
Copeland. Armfield and Nelson sprang from their car, ran to­
ward Copeland, and fired multiple shots into his vehicle, kill­
ing him.
The state charged Armfield, Randall, and Nelson with
first-degree murder. Armfield and his codefendants

Case: 18-3702

Document: 45

Filed: 01/11/2021

No. 18-3702

Pages: 23

3

proceeded to trial before two juries—one jury for Armfield
and Randall, the other for Nelson. The two trials, though sep­
arate, occurred simultaneously before the same judge, with
the juries and defendants shuffling in and out depending on
the evidence presented.1
No doubt this arrangement contributed to the mishap at
the center of this habeas petition. During deliberations, the
Armfield/Randall jury requested a transcript of certain wit­
nesses' testimony. The court, by mistake, tendered a trial tran­
script containing the prosecutor's opening statements from
Nelson's case. The Armfield/Randall jury had not heard this
version. Therein, the prosecutor referenced a videotaped
statement from Nelson that purported to implicate all three
defendants in the murder:
And, ladies and gentlemen, you're also going to
see a statement given to a Cook County assis­
tant state's attorney that was videotaped of
[Nelson] confessing to shooting A1 Copeland
and laying out essentially the same facts that I
just told you. You will see him tell you how he
and his partners murdered A1 Copeland in his
own words.

1 Trial courts sometimes employ this practice to increase efficiency.
Simultaneous trials can circumvent the need for duplicate presentation of
overlapping evidence. But their use does not come risk-free. Here, the trial
court's confusion between two transcripts spawned years of postconvic­
tion litigation in state and federal court. Whatever resources the trial court
hoped to save were cancelled out long ago by the tax on judicial economy.
We take this opportunity to implore trial courts to exercise caution and
diligence when holding simultaneous trials. The mistake at the center of
this case was completely avoidable.

Case: 18-3702

Document: 45

Filed: 01/11/2021

4

Pages: 23

No. 18-3702

Supp. App'x at 164.
Neither this snippet nor Nelson's confession were pre­
sented as evidence of Armfield's involvement. For that, the
state leaned primarily on eyewitness testimony rather than
physical evidence.
•4

'

Two witnesses placed Armfield, Nelson, and Randall at
the 6:00 pm shooting scene. One of those witnesses actually
saw Randall pull the trigger and believed Armfield acted as a
lookout.
Grand jury testimony and a police statement from Ran­
dall's sister revealed how the defendants obtained guns just
before they killed Copeland, though she recanted that story at
trial.
Three more witnesses detailed the defendants' involve­
ment in the fatal 9:00 pm shooting. Copeland's girlfriend and
a bystander watched Armfield and Nelson shoot Copeland.
The latter positively identified Armfield and Nelson as the
shooters; he knew them from the neighborhood. Randall's
girlfriend (the driver) told police and the grand jury Randall
instructed Armfield and Nelson to shoot Copeland, and that
when Armfield returned to the car, he admitted to firing his
weapon. Like Randall's sister, she recanted this account on
the stand.
Finally, the state introduced evidence regarding a subse­
quent shooting in March 2005 involving Nelson, following
which police confiscated one of the firearms used in
Copeland's murder. Armfield played no part in this shooting.
Neither Armfield nor Randall put on a defense, and none
of the three defendants testified before the Armfield/Randall
jury.

Case: 18-3702

No. 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

5

The jury convicted Armfield of first-degree murder.2 He
received a sentence of 33 years' imprisonment. Armfield ap­
pealed on grounds that disclosing the reference to Nelson's
confession deprived him of a fair trial, along the lines of Bru­
ton v. United States, 391 U.S. 123 (1968). The state appellate
court acknowledged the error in allowing Armfield's jury ac­
cess to opening statements from a separate trial. It nonetheless
held this error non-reversible and further determined it to be
harmless beyond a reasonable doubt. The Illinois Supreme
Court denied review.
Armfield next launched a state collateral attack on the con­
viction. The basis: his trial counsel provided ineffective assis­
tance in multiple respects, including by failing to move to ex­
clude testimony about the March 2005 shooting that did not
involve Armfield. The state appellate court rejected his claim
for failure to satisfy prejudice under Strickland v. Washington,
466 U.S. 668 (1984). The Illinois Supreme Court denied re­
view.
Armfield filed for federal habeas relief. The district court
concluded the state appellate court did not unreasonably ap­
ply Supreme Court precedent to Armfield's Confrontation
Clause claim or the related harmlessness analysis. Nor did the
state court's prejudice determination unreasonably apply
Strickland. We granted Armfield's request for a certificate of
appealability on these two issues.

. 2 The jury was also asked to determine whether Armfield personally
discharged a firearm during the commission of the offense. The jury found
he did not.

Case: 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

6
II. Discussion

We review the district court's denial of federal habeas re­
lief de novo, "but our inquiry is an otherwise narrow one."
Schmidt v. Foster, 911 F.3d 469,476 (7th Cir. 2018) (en banc).
A federal court may grant habeas relief following an adju­
dication on the merits in state court only if that decision (1)
"was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Su­
preme Court of the United States," or (2) "was based on an
unreasonable determination of the facts in light of the evi­
dence presented in the State court proceeding." 28 U.S.C.
§§ 2254(d)(l)-(2); Schmidt, 911 F.3d at 476-77.
This standard is difficult to meet. "Unreasonable means
more than incorrect." Winfield v. Dorethy, 956 F.3d 442, 451
(7th Cir. 2020). The inquiry is "whether the decision was un­
reasonably wrong under an objective standard." Dassey v.
Dittmann, 877 F.3d 297, 302 (7th Cir. 2017) (en banc).
On both Armfield's claims, the Illinois Appellate Court is­
sued the "last reasoned decision on the merits," so we afford
its analysis deference so long as that analysis is reasonable.
Gage v. Richardson, 978 F.3d 522, 529 (7th Cir. 2020). Habeas
relief is warranted only if Armfield shows the state court's de­
terminations were "so lacking in justification that there was
an error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement." Har­
rington v. Richter, 562 U.S. 86,103 (2011). Given this demand­
ing standard of review, we cannot award Armfield the relief
he seeks.

Case: 18-3702

Document: 45

No. 18-3702

Filed; 01/11/2021

Pages; 23

7

A. Confrontation Clause
The Sixth Amendment's Confrontation Clause guarantees
a criminal defendant the right to be confronted with the wit­
nesses against him, so that he may cross-examine their testi­
mony and allow the jury to weigh their credibility. Douglas v.
Alabama, 380 U.S. 415, 418-19 (1965).
Armfield's jury received information that Nelson made a
videotaped statement implicating Armfield in the murder. Yet
Nelson did not testify at Armfield's trial. This information
reached the jury as would an ex parte affidavit or deposition,
thus depriving Armfield of the opportunity to rebut Nelson
through cross-examination. Armfield argues the disclosure
amounted to a violation of his constitutional rights and
should result in habeas relief.
The state appellate court acknowledged the "unquestion­
able] ... error by the trial court." Short App'x at 35. But it held
the error did not create a constitutional violation contem­
plated by Bruton v. United States, 391 U.S. 123 (1968). Armfield
claims this ruling was contrary to and unreasonably applied
Supreme Court precedent, and that it rested on unreasonable
determinations of fact.
i.

Constitutional violation?

In Bruton, at a joint trial for armed robbery, an investigator
testified to a codefendant's confession that implicated peti­
tioner. 391 U.S. at 124. The codefendant did not testify. The
Court held the admission violated petitioner's constitutional
right to cross-examine his codefendant. Id. at 126. This, de­
spite jury instructions prohibiting the confession's considera­
tion toward determining petitioner's guilt. The jury could not

Case: 18-3702

8

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

reasonably be expected to ignore the confession, which added
substantial strength to the prosecution's case.
The Bruton Court also placed great emphasis on the con­
fession being admitted into evidence; it was not merely para­
phrased through attorney statements or argument. Rather,
the jury received its entire substance, as was true in Douglas,
where the prosecutor read a codefendant's confession into the
record "under the guise of cross-examination to refresh [the
codefendant's] recollection" after the codefendant refused to
answer questions about the crime. 380 U.S. at 416. That con­
fession inculpated petitioner. Though reading the codefend­
ant's confession did not technically qualify as testimony, do­
ing so risked the jury equating it with evidence and created
an inference that the codefendant actually made the state­
ment. The inference could not be tested on cross-examination
because the prosecutor was not himself a witness; nor could
the codefendant be cross-examined on a statement "imputed
to but not admitted by him." Id. at 419. This procedure denied
petitioner his right of confrontation.
The situation in Frazier v. Cupp, 394 U.S. 731 (1969), pre­
sented far less a threat to petitioner's confrontation rights.3 In
that case, the prosecutor summarized anticipated testimony
from petitioner's codefendant (who had already pled guilty
to the same offense) during opening statements. The sum­
mary itself "was not emphasized in any particular way," but
it referenced a confession made by the codefendant. Id. at 733.
That testimony never materialized; the codefendant invoked
his right against self-incrimination when he took the stand.
3 The state appellate court did not consider Frazier, but the district
court did.

Case; 18-3702

No. 18-3702

Document: 45

Filed; 01/11/2021

Pages: 23

9

Even if it had, the statement "was not a vitally important part
of the prosecution's case," and the jury was instructed that
opening statements must not be considered as evidence. Id. at
735.
These facts led the Frazier Court to conclude no constitu­
tional violation had occurred. In so holding, the Court re­
jected the same general argument Armfield makes: the refer­
ence to his codefendant's confession in opening statements—
albeit in Nelson's trial, not his own—"placed the substance of
[Nelson's] statement before the jury in a way that 'may well
have been the equivalent in the jury's mind of testimony.'" Id.
at 734 (quoting Douglas, 380 U.S. at 419).
Resolving Armfield's Confrontation Clause challenge
boils down to determining on which side of the Bruton/Frazier
line his case falls.
Armfield maintains his conviction flies in the face of Bru­
ton as well as analogous Supreme Court precedent addressing
the use of redacted codefendant confessions at joint trials. For
example, Armfield argues while the summary of Nelson's
confession did not mention Armfield by name, that quasi re­
daction would still permit the jury to consider it against him.
The prosecutor's summary stated "[Nelson] and his partners
murdered A1 Copeland." Having just sat through three days
of testimony corroborating the state's theme that Armfield,
Randall, and Nelson acted as a team, a juror at Armfield's trial
"need only lift his eyes to [Armfield], sitting at counsel table,"
to figure out the identity of Nelson's "partners." Gray v. Mar­
yland, 523 U.S. 185,193 (1998) (holding confession redactions
that obviously refer to defendant fall within Bruton's protec­
tive rule); but see Richardson v. Marsh, 481 U.S. 200, 211 (1987)
("[T]he Confrontation Clause is not violated by the admission

Case: 18-3702

10

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

of a nontestifying codefendant's confession with a proper lim­
iting instruction when, as here, the confession is redacted to
eliminate not only the defendant's name, but any reference to
his or her existence:").
Armfield further distinguishes his case from Frazier by
claiming his jury received the substance of Nelson's confes­
sion, i.e., how Nelson and his partners murdered Copeland.
Because his jurors had already heard testimony about the
murder's details, Armfield argues the disclosure of the fact
that Nelson confessed validated those facts in their minds.
On the flipside, Armfield's jury was not exposed to Nel­
son's confession itself. The wayward transcript contained
only opening statements from Nelson's trial; it did not include
evidence that Armfield's jurors did not observe.
Moreover, the allusion to Nelson's confession was generic
and fleeting, occupying only seven lines of transcript text to­
ward the end of the prosecutor's monologue. Nelson's confes­
sion (and the fact that he gave one) played no part in the pros­
ecution's case-in-chief against Armfield. In addition, the trial
judge instructed Armfield's jury to consider only evidence in
the form of witness testimony, exhibits, and stipulations; the
judge then gave a clear follow-up instruction that opening
statements are not evidence.4 These instructions did not pre­
sent the same concerns outlined by the Court in Bruton. See
Frazier, 394 U.S. at 736 ("Even if it is unreasonable to assume
that a jury can disregard a coconspirator's statement when
4 Query whether the jury would interpret this second instruction to
prohibit treating opening statements from Nelson's trial as evidence, or
whether that instruction carried such force at all. We need not answer
these questions given our holding.

Case: 18-3702

Document: 45

No. 18-3702

Filed: 01/11/2021

Pages: 23

11

introduced against one of two joint defendants, it does not
seem at all remarkable to assume that the jury will ordinarily
be able to limit its consideration to the evidence introduced
during the trial.").
We need not answer whether the state appellate court un­
reasonably applied Supreme Court precedent or rested its de­
cision on an unreasonable interpretation of the facts when it
held the transcript mix-up caused no reversible constitutional
error. Even were Armfield's Confrontation Clause rights vio­
lated, any such violation was harmless.
ii. Harmlessness
Federal habeas relief "is appropriate only if the prosecu­
tion cannot demonstrate harmlessness." Davis v. Ayala, 576
U.S. 257, 267 (2015). And Armfield does not argue the jury's
receipt of Nelson's trial transcript constitutes "the rare type of
error" that overrides the harmlessness requirement. See id.
(citing Glebe v. Frost, 574 U.S. 21, 23 (2014)).
Procedural posture determines how we assess harmless
error. Courts reviewing cases on direct appeal may find a con­
stitutional violation harmless only if the error was. "harmless
beyond a reasonable doubt" Ayala, 576 U.S. at 267 (quoting
Chapman v. California, 386 U.S. 18, 24 (1967)). Collateral pro­
ceedings like this one require more from the habeas peti­
tioner ./Armfield is "not entitled to habeas relief based on trial
error unless [he] can establish that it resulted in 'actual preju­
dice.'" Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). In other
words, relief is proper only if the federal court has "grave
doubt about whether a trial error of federal law had 'substan­
tial and injurious effect or influence in determining the jury's
verdict.'" O'Neal v. McAninch, 513 U.S. 432, 436 (1995)}

Case: 18-3702

12

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

We employ Brecht's "actual prejudice" test even if the state
appellate court reviewed the matter through Chapman's harmless-beyond-a-reasonable-doubt lens. Jones v. Basinger, 635
F.3d 1030, 1052 (7th Cir. 2011); see also Ayala, 576 U.S. at 26870 (explaining the Brecht standard subsumes § 2254(d)'s re­
quirements when a federal habeas petitioner challenges the
state court's Chapman finding). We employ a de novo review of
the entire record, asking "whether a properly instructed jury
would have arrived at the same verdict, absent the error."
Czech v. Melvin, 904 F.3d 570, 577 (7th Cir. 2018).
Note: harmless-error review is distinct from assessing
whether there was enough evidence at trial to support a ver­
dict. Jensen v. Clements, 800 F.3d 892, 902 (7th Cir. 2015). The
question here is whether the error "had or reasonably may be
taken to have had" a substantial influence on the jury's deci­
sion. Kotteakos v. United States, 328 U.S. 750, 764 (1946). When
sizing up the state's case, we look at the case's overall
strength, not just the evidence in the state's favor. Jensen, 800
F.3d at 906. For cases involving Confrontation Clause errors,
we examine factors like the importance of the disclosed state­
ments to the prosecution's case, whether the disclosure was
cumulative, the presence of corroborating evidence, and the
extent of cross-examination permitted. Id. at 904.
It's obvious Armfield had no chance to cross-examine Nel­
son (or anyone) about Nelson's statement to police. The short
summary of Nelson's confession can also be considered
mostly cumulative; the disclosed opening statement indicates
the confession "lay[s] out essentially the same facts" as those
making up the state's theory against Armfield. The summary
filled no gaps in the state's evidence.

Case: 18-3702

No. 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

13

The bigger question here is what role, if any, the inadvert­
ent disclosure played in the government's case. Based on the
detailed, consistent testimony from several independent wit­
nesses confirming Armfield's involvement, we cannot con­
clude the disclosure of Nelson's confession had or reasonably
may have had a substantial influence on the jury's decision.
Two separate witnesses placed all three defendants at the
6:00 pm shooting. Willie Williams spotted Nelson pushing
Randall in a wheelchair. Williams knew both men from the
neighborhood. He watched as Nelson handed Randall a pis­
tol. He saw Randall open fire on a gray Chevrolet. Williams
also noticed a third man, later identified as Armfield, standing
in a nearby alley. To Williams, it seemed Armfield was acting
as a lookout.
Yakirah Robinson was driving her own car close to the
gray Chevrolet. She saw Randall in a wheelchair with Nelson
standing behind him. She saw Armfield nearby, too. She
heard close-range gunshots and sped off without seeing who
fired them. When she reached safety, Robinson noticed her
car had been struck by at least one bullet. She made a police
report and watched as A1 Copeland spoke with law enforce­
ment. His vehicle, a gray Chevrolet Cavalier, had also been
shot.
Three hours later (around 9:00 pm) and a few blocks from
the first shooting, Calshaun Vinson observed Copeland driv­
ing away from a restaurant. Vinson had known Copeland
since childhood. Vinson also saw all three defendants in a
black car. He could see Randall in the front passenger seat
with Nelson and Armfield in the rear. He could tell Randall's
girlfriend, Ayeshia Floyd, was driving. Vinson knew the three
defendants.

Case: 18-3702

14

Document; 45

Filed; 01/11/2021

Pages; 23

No. 18-3702

The vehicle in which Vinson was riding came to a stop.
From there, he could see Copeland's car approach a nearby
intersection. Vinson watched Armfield and Nelson exit the
black car and run toward the intersection. He saw them shoot
at Copeland's car.
Copeland had just dropped off Kawana Jenkins and her
three children at Jenkins's home. As Copeland drove away,
Jenkins saw a young man flag him down. She saw Copeland
open his car door. She saw the young man open fire on
Copeland. She saw Copeland accelerate away, but as he
reached an intersection, another individual emerged and be­
gan shooting at Copeland. Copeland crashed. Jenkins ran to
his car and found him slumped over.
The assailants shot Copeland five times. He died before
reaching the hospital.
Physical evidence collected from the murder scene sup­
ported this two-shooter narrative. Investigators found bullet
fragments and spent cartridge cases of two different calibers,
9mm and .40 caliber, fired from two different guns. The spent
cases were found at different positions; the 9mm cases were
grouped in the middle of the street, and the .40-caliber cases
were grouped several addresses away, on the sidewalk.
In March 2005, Floyd gave a statement to investigators
about Copeland's murder and testified before a grand jury.
With Floyd on the stand at trial, the state introduced her
grand jury testimony for impeachment purposes. Floyd told
the grand jury that, around 9:00 pm on August 17, 2004, she
was driving a car with Randall in the front passenger seat and
Nelson and Armfield in the rear.

Case: 18-3702

Document: 45

Filed: 01/11/2021

No. 18-3702

Pages: 23

15

Floyd stated, after Randall spotted Copeland, he called his
sister and asked her to retrieve a hooded sweatshirt and some
urine bags5 from his house. Floyd drove the trio to Randall's
home. There, Randall's sister, Sinquis Prosper, brought the re­
quested items to the car. Floyd observed Randall's sister cra­
dling the sweatshirt with two hands.
Floyd informed the grand jury she then drove the defend­
ants to the vicinity of Jenkins' home, where Randall watched
Copeland drop off Jenkins and her children. Floyd witnessed
Randall instruct Armfield and Nelson to "take care of busi­
ness." Floyd understood this to mean Armfield and Nelson
should shoot Copeland.
Armfield and Nelson exited the vehicle and headed to­
ward Copeland. Floyd heard several gunshots and then saw
Armfield and Nelson running back to her car. Armfield had a
gun in his hand and Nelson was holding his side as if carrying
a gun. They got back in Floyd's car. Armfield, complaining
about Nelson's hesitancy, exclaimed: "[He] didn't want to
shoot until I started to shoot."
Prosper testified at trial, too. She attested to the phone call
and visit from her brother occurring shortly before 9:00 pm
on August 17, 2004. She also confirmed Randall arrived in a
car driven by Floyd, with Armfield and Nelson sitting in the
rear. She gave Randall the requested sweatshirt and urine
bags. Prosper told police and the grand jury the sweatshirt
contained hard, heavy objects in its pockets. Though Prosper
did not look inside the pockets, she believed they contained
guns; she knew Randall kept guns in the house. The state

5 For Randall's medical condition. He is paralyzed.

Case: 18-3702

16

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

introduced Prosper's police statement and grand jury testi­
mony for impeachment purposes.
Despite these accounts, the prosecution's case against
Armfield did not go unchallenged. No physical evidence tied
Armfield to either the 6:00 pm or the 9:00 pm shooting. No
suitable latent fingerprints were left on any of the cartridge
cases found at the murder scene. Police did confiscate a 9mm
pistol after responding to a March 2005 shooting involving
Armfield's codefendant, Nelson (more on that, below). Alt­
hough forensic analysis matched that gun to the 9mm car­
tridge cases recovered from the murder scene, Armfield had
nothing to do with the events surrounding the pistol's confis­
cation.
The state's witnesses had their share of credibility issues.
Williams did not identify Armfield at the scene until he
picked Armfield from a police photo lineup in April 2005—a
full eight months after the shooting. Nor did he even recog­
nize Armfield in the courtroom at trial. Williams also admit­
ted to testifying while on heroin.
Vinson spoke to police the night of Copeland's murder,
but he did not provide his full account until being charged
with a felony firearm offense in March 2005. He received no
promises for cooperating yet his gun charge was dismissed.
Prosper and Floyd each recanted at trial and told the jury
they had been threatened by police to lie. Prosper testified the
police and a state's attorney instructed her to falsely claim she
felt heavy, hard objects in the sweatshirt, or else face jail. She
claimed the entirety of her grand jury testimony was fabri­
cated other than the fact that she delivered urine bags and a
sweatshirt to her brother on August 17, 2004.

Case: 18-3702

No. 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

17

Floyd stated police gave her a bogus series of events to
memorize and regurgitate before the grand jury. She pur­
ported to comply only after investigators threatened her with
a first-degree murder charge and 12 years' imprisonment on
three unrelated drug counts. Per Floyd's revised story, she
and the three defendants spent the day Copeland died driv­
ing around smoking marijuana. Floyd confirmed the encoun­
ter with Prosper involving urine bags and a sweatshirt, but
she denied everything else she had told police regarding
Copeland's murder. She claimed those additional events did
not happen. She also testified she could not remember what
she told the grand jury, adding it was all a lie anyway.
Floyd and Prosper's claims of coercion conflicted with
their grand jury testimony, in which they stated no promises
or threats had been made in connection with their willingness
to talk with investigators. The government also put on wit­
nesses who denied Prosper and Floyd's accusations of threats
from law enforcement. The jurors had the opportunity to
weigh those rebuttals against the allegations. They knew of
Prosper and Floyd's close relationships with Randall and
could infer from them a motive to protect him. They also
heard a portion of Floyd's grand jury testimony in which she
explained Randall abused her and she was scared he could
have her harmed or killed.
Armfield contends the flaws in the state's case made the
question of his guilt a razor-thin call. The jury, after all, delib­
erated for nearly fourteen hours. At one point the jurors in­
formed the judge they reached an impasse and had to be in­
structed to keep deliberating. He also points to the jury's con­
clusion that he did not fire a weapon during the murder as
proof that it rejected evidence to the contrary, such as Vinson

Case: 18-3702

18

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

and Floyd's accounts. Since the jury discredited those key wit­
nesses, there was little left of the prosecution's case and the
disclosed opening statements from Nelson's trial must have
tipped the scale against him, he claims.
We disagree. First, that the jury determined Armfield did
not discharge a weapon does not mean the jury rejected
Vinson and Floyd's testimony entirely. Nor does the special
verdict bear on Armfield's guilt for first-degree murder be­
cause he still faced accomplice liability. The jury found him
guilty of that crime; he participated directly in bringing about
Copeland's death. In other words, even if the jury discounted
testimony that Armfield himself fired at Copeland, that does
not elevate the disclosed summary of Nelson's confession au­
tomatically (or at all); the special verdict does not tell us
whether the disclosure had a "substantial and injurious" in­
fluence on the jury's ability to find Armfield guilty of murder.
More significant is the weight of evidence against Armfield. Multiple unconnected witnesses corroborated the
state's theory: Armfield acted as part of a three-man crew that
tried to kill Copeland once, failed, tried again only hours later,
and succeeded. Two bystanders placed him, along with Nel­
son and Randall, at the scene of the 6:00 pm attempt on
Copeland's life. Two more witnesses—one bystander and one
accomplice—confirmed Armfield and Nelson's roles as trig­
ger men in the 9:00 pm shooting and additionally placed Ran­
dall at the scene. Physical evidence and an additional witness
supported the two-shooter theory. Another witness identified
all three men together, only minutes before the fatal shooting,
when delivering them a sweatshirt containing what she be­
lieved to be guns. For all their personal credibility baggage,
the witnesses' narratives were consistent in substahce and

Case: 18-3702

Document: 45

Filed: 01/11/2021

No. 18-3702

Pages: 23

19

detail. Vinson's testimony and Floyd's grand jury statements
were especially damning.
The trial evidence alone spanned almost 450 pages of tran­
script. Not once did the state discuss or even hint at Nelson's
confession. Only during deliberations was Armfield's jury ex­
posed to a summary of Nelson's confession—a summary last­
ing two sentences, made during opening statements (not evi­
dence) in another trial, that revealed no new details about the
murder. Review of the entire record leaves us with no "grave
doubt" about harmlessness. The disclosure was inconsequen­
tial next to the evidence, and a "properly instructed jury
would have arrived at the same verdict" absent the disclo­
sure. Czech, 904 F.3d at 577. Armfield's Confrontation Clause
claim warrants no habeas relief.
B. Ineffective Assistance of Counsel
Armfield also maintains he received ineffective assistance
of counsel because his trial attorney did not move to exclude
evidence concerning a shooting that happened in March 2005.
Armfield raised this claim in a collateral postconviction pro­
ceeding. The state appellate court denied him relief. Armfield
now insists the state court unreasonably applied Strickland in
concluding trial counsel's error did not prejudice his case.
At trial, Tykima Walker testified that on March 18, 2005,
she drove her two children to the Cook County jail to visit one
of the children's fathers. Three men in another vehicle, a
Grand Prix, followed her. She identified one of them as Nel­
son. At some point along the way, they began shooting at her
car. When Walker arrived at the jail, Nelson and another of
the Grand Prix occupants exited their car and followed her
inside.

Case: 18-3702

20

Document: 45

Filed: 01/11/2021

Pages: 23

No. 18-3702

Officer Frank Ramaglia responded to reports of a person
with a gun in a white Grand Prix. He located the Grand Prix,
parked. At this point, only one individual remained in the car:
a Calvin Armfield—not our petitioner, Russell Armfield.
Ramaglia testified he placed Calvin Armfield in custody and
retrieved three firearms from the car: a .380-caliber machine
pistol; a .40-caliber pistol; and a 9mm pistol. Forensic ballistics
analysis determined the 9mm pistol had been used in
Copeland's murder. The jury viewed all three guns while the
prosecutor had Ramaglia verify chain of custody.
Strickland v. Washington provides the clearly established
federal law for Armfield's ineffective assistance of counsel
claim. 466 U.S. 668 (1984). Pursuant to Strickland, Armfield
must show (1) counsel's performance "fell below an objective
standard of reasonableness," and (2) "there is a reasonable
probability that, but for counsel's unprofessional errors, the
result of the proceeding would have been different." Id. at 688,
694. Failure to prove either deficient performance or prejudice
defeats a petitioner's claim. Winfield, 956 F.3d at 452.
For prejudice, a reasonable probability is one "sufficient to
undermine confidence in the outcome." Strickland, 466 U.S. at
694. The "likelihood of a different result must be substantial,
not just conceivable." Richter, 562 U.S. at 112.
The state appellate court did not address whether trial
counsel performed deficiently under Strickland's first prong.
We need not address performance either if resolving the claim
on prejudice will do. McNary v. Lemke, 708 F.3d 905, 914 (7th
Cir. 2013). But the state court indeed assessed prejudice, and
our review is "doubly" deferential at this stage. Richter, 562
U.S. at 105.

Case: 18-3702

No. 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

21

Here, even if counsel's failure to object was sub-standard,
that failure did not prejudice Armfield's case.
As with Armfield's briefing of harmlessness, much of his
argument for prejudice rests on his view that the state brought
a weak case against him. See Strickland, 466 U.S. at 696 ("[A]
verdict ... weakly supported by the record is more likely to
have been affected by errors than one with overwhelming rec­
ord support."). Granted, the state's evidence against Armfield
was not one-sided, but it was both robust and compelling. We
discussed the evidence's strength (and shortcomings) in the
preceding section and need not repeat ourselves.
In addition, Armfield highlights the Illinois Appellate
Court's adoption of its earlier assessment of Armfield's case
on direct appeal. On direct appeal, the state court incorrectly
determined police recovered the 9mm pistol used in
Copeland's murder from petitioner's car, not that of Calvin
Armfield. Armfield argues this mistake constitutes an unrea­
sonable determination of fact that should result in habeas re­
lief.
But nothing indicates the jury made that same mistake.
Early on in closing arguments, while referring to Armfield
and Randall, the prosecutor said "they" are so bold as to shoot
up the area around the Cook County jail. That was technically
incorrect; only Nelson took part in the shooting near the jail.
Armfield and Randall had nothing to do with it. The misstate­
ment, however, was minor, and we can find no prejudice re­
sulting from it. Indeed, the prosecutor made sure to include
Calvin Armfield's first name when later getting into the par­
ticulars of the March 2005 shooting, distinguishing that indi­
vidual from petitioner. At one point, the prosecutor began to
refer to Calvin Armfield as petitioner's brother. Defense

Case: 18-3702

Document: 45

Filed: 01/11/2021

22

Pages: 23

No. 18-3702

counsel objected and the judge sustained the objection, ex­
plaining, "There is no testimony about what relation the one
bore to the other." Supp. App'x at 574. Given this context,
there was little room for the jury to confuse the two. Nor was
the jury likely to associate the .380- and .40-caliber guns re­
covered in March 2005 with Copeland's murder. Nothing
linked those weapons to the fatal August 2004 shooting in any
way, and the jury's exposure to them was momentary and
procedural at most.
Relatedly, Armfield implies trial counsel's failure to object
allowed the state to unfairly lump him in with "superpreda­
tors" brazen enough to shoot up an area with heavy law en­
forcement presence near the jail and courthouse. The prose­
cution didn't need to reference the March 2005 shooting for
the jury to draw that conclusion. Armfield fit the bill thanks
tcrTiis Tole in two shootings on the same day on the public
streets of the same neighborhood.
The state appellate court did not apply Strickland's preju­
dice test unreasonably. Considering the strength of the pros­
ecution's evidence against the secondary value added by the
March 2005 shooting, there exists no substantial likelihood of
a different result here.
III. Conclusion
The Illinois Appellate Court reviewed Armfield's convic­
tion twice: once on direct appeal (his Confrontation Clause
challenge), and again through collateral proceedings (his in­
effective assistance of counsel challenge). In neither instance
did the state court resort to an unreasonable analysis that
would permit federal habeas relief. The state's case against
Armfield was strong, with multiple, independent witnesses

Case: 18-3702

No. 18-3702

Document: 45

Filed: 01/11/2021

Pages: 23

23

swearing to the same events and implicating him as a key
player in A1 Copeland's murder. Thus, Armfield cannot over­
come harmlessness or make a showing of prejudice, as re­
quired for his two claims. The district court's judgment is
AFFIRMED.

Case: l:17-cv-0333l Document #: 23 Filed: 11/27/18 Page 1 of 23 PagelD #:1324

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Russell Armfield,

)
)
)
)
)
)
)
)
)
)
)

Petitioner,
v.

Cameron Watson, Warden,
Western Illinois Correctional Center,
Respondent.

No. 17 C 3331

Judge Thomas M. Durkin

MEMORANDUM OPINION AND ORDER
Petitioner Russell Armfield, an Illinois state prisoner, seeks a writ of habeas
corpus pursuant to 28 U.S.C. § 2254. For the following reasons, the Court denies
Armfield’s petition [1, 8].1 The Court declines to issue a certificate of appealability.
Background
Kimothy Randall, Tyrene Nelson, and Armfield were all charged with the 2004
murder of A1 Copeland. R. 12-1 at 1-2. Nelson confessed to his role in the homicide
and implicated Armfield and Randall in his confession. Id. at 1. Nelson’s trial was
severed from Armfield and Randall’s. Id.
A number of witnesses’ testimony at Armfield and Randall’s trial implicated
Armfield in Copeland’s murder. The most direct evidence was testimony by a friend
of Copeland’s named Calshaun Vinson that he saw Armfield and Nelson (both of
whom he previously knew) fire the shots in the direction of Copeland’s vehicle that

A
i

Armfield filed the same petition twice, which is in the record at R. 1 and R. 8.
1

APPmfflt 6

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 2 of 23 PagelD #:1324

killed Copeland. R. 12-2 at 2. Kawana Jenkins, Copeland’s girlfriend, offered
corroborating testimony that she saw two men shoot Copeland’s car while he was
driving away from her house after dropping off her and her children, and then found
Copeland shot in his car. Id. at 2-3. Willie Williams testified that earlier on the night
of Copeland’s murder, he saw Nelson and Randall shoot at Copeland’s car with
Armfield present, but Copeland escaped. Id. at 4. Yakirah Robinson corroborated
Williams’s account. Id.
Randall’s girlfriend Ayeshia Floyd recanted her prior statements to police and
the grand jury at trial, denying any knowledge about Copeland’s shooting. R. 12-16
at 86-147. But in her grand jury testimony, which was admitted as substantive
evidence at trial, Floyd explained that the night of the shooting, she drove Armfield,
Nelson, and Randall near the site of the shooting. R. 12-2 at 3-4, 10. She explained
that Randall instructed Armfield and Nelson to “take care of business,” which she
understood to mean that they should shoot Copeland. Id. at 10. After Armfield and
Nelson got out of the car, Floyd heard gunshots. Id. Floyd and Randall drove away
and eventually picked up Armfield and Nelson. Id. Floyd told the grand jury that
Armfield admitted to Floyd when he returned to the car that he fired his gun and
Armfield complained that Nelson did not shoot until after Armfield did. Id.
An Assistant State’s Attorney testified that he advised Floyd of her rights
before questioning her after the shooting, and that he made no promises or threats in
exchange for her grand jury testimony. R. 12-16 at 180-84. Two detectives likewise

2

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 3 of 23 PagelD #:1324

testified that they did not threaten Floyd or promise her anything in exchange for her
grand jury testimony. R. 12-2 at 3.
The trial court also admitted evidence that police discovered one of the guns
used in Copeland’s shooting in a car in which Nelson had been a passenger during a
subsequent shooting outside the Cook County Jail. R. 12-2 at 6. There was no forensic
evidence presented connecting Armfield to that gun.
Jury deliberations began on the evening of June 14, 2007 and ended the
evening of June 15. R. 12-13 at 7. At some point during the first half of the day on
June 15, the trial court provided the jury with certain transcripts they requested,
including of Floyd’s grand jury testimony and various courtroom proceedings. R. 1219 at 4-11. The transcripts of courtroom proceedings provided to the jury
inadvertently contained not only the witness testimony requested, but also opening
statements from Nelson’s separate trial. The transcript of the prosecutor’s opening
statement from Nelson’s trial referred to Nelson’s confession implicating Armfield. R.
12-1 at 8-9. Specifically, the transcript of the opening statement in Nelson’s trial
stated:
ladies and gentlemen, you’re also going to see a statement given to a
Cook Count assistant state’s attorney that was videotaped of [Nelson]
confessing to shooting A1 Copeland and laying out essentially the same
facts that I just told you. You will see him tell you how he and his
partners murdered A1 Copeland in his own words.
Now, these defendants, this defendant and his two partners, they acted
as a team. [Nelson] confined to a wheelchair couldn’t have done these
things on his own. And these defendants were provided guns by
[Nelson]. Without [Nelson’s] part, they couldn’t have killed A1 Copeland.
R. 12-14 at 12.
3

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 4 of 23 PagelD #:1324

In the middle of the afternoon on June 15, some time after the jury received
the transcripts, the jury wrote the following note: “We have reached an impasse —
further discussion will not change, + in fact, may cause more hostility among jury.”
R. 12-13 at 116; R. 12-19 at 9-12. In response to the note, the court re-instructed the
jury as to their duties as jurors, including “to deliberate with a view toward reaching
an agreement if you can do so without violence to individual judgment.” R. 12-19 at
13. The court “ask[ed] the jurors to return to the jury room and re-commence their
deliberation.” Id. at 14.
Later that afternoon, defense counsel raised with the court the issue of whether
the transcripts given to the jury earlier that day contained “not only the testimony of
witnesses, but also the opening arguments of both the defense and the prosecution.”
Id. at 15. The court asked the prosecution if it knew whether this was the case, the
prosecution said it did not know, and the court said, “there’s your answer.” Id. at 1617. Defense counsel again raised the issue of whether the transcripts “contained the
opening statements” during a subsequent discussion with the court, and the court
said, “We’re not at that bridge, and we’ll reach it if we ever come to it.” Id. at 19. In
neither of these exchanges did defense counsel specifically raise with the court the
fact that Nelson’s confession was mentioned in the prosecutor’s opening statement in
Nelson’s trial that defense counsel believed might have been (and, it turns out, was)
provided to Armfield’s jury.
A number of hours later, in the late evening of June 15, the jury reached a
unanimous verdict. R. 12-13 at 7. The jury convicted Armfield of first-degree murder,

4

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 5 of 23 PagelD #:1324

and it found Armfield not guilty of “personally discharging] a firearm.” R. 12-13 at
127, 129. The court later sentenced Armfield to 33 years in prison. Id. at 168.
On direct appeal in the Illinois Appellate Court, Armfield argued that his Sixth
Amendment right to confrontation and his Fourteenth Amendment due process
rights were violated when the transcript of opening statements in Nelson’s trial
referring to Nelson’s confession was submitted to Armfield’s jury during its
deliberations. R. 12-3 at 4. Armfield maintained that submission of this statement to
the jury ran afoul of Bruton v. United States, 391 U.S. 123 (1968), in which the
Supreme Court held that the admission into evidence of a codefendant’s statement
implicating the defendant without the codefendant testifying and being subject to
cross-examination violates the defendant’s constitutional right to confront witnesses
against him, regardless of any jury instruction to consider the statement against the
codefendant only.
The Illinois Appellate Court affirmed Armfield’s conviction. R. 12-1 at 14. The
Illinois Appellate Court found that there was “unquestionably an error” committed
by the trial court when it submitted the opening transcript from Nelson’s trial to the
jury. Id. at 11. It explained:
The jury was allowed to read something that it was not allowed to hear
at trial: the opening statements to codefendant’s jury. That proscribed
material included an ASA’s reference to codefendant’s statements
implicating [Armfield], a statement that would clearly have been
inadmissible against [Armfield] because codefendant did not testify.
Id. at 11-12. But the Illinois Appellate Court found that this error was not reversible.
Id. at 12-13. It determined that the case was “not subject to Bruton” “[b]ecause the

5

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 6 of 23 PagelD #:1324

State did not attempt to introduce codefendant’s statement into evidence against
defendant” and “[b]ecause the jury did not hear (or, more precisely, read) the
substance or content of codefendant’s statement.” Id. Instead, the jury was provided
with “only a reference to the confession in an ... opening statement.” Id.
The Illinois Appellate Court emphasized that “the jury was duly admonished
that opening statements are not evidence and that each defendant should be judged
on his particular evidence.” Id. The Illinois Appellate Court relied on the Supreme
Court’s decision in Richardson v. Marsh, 481 U.S. 200 (1987), which found no Bruton
violation where the inculpation of defendant in the codefendant’s confession admitted
in their joint trial was not “express[ ]” but “inferential” (i.e., only clear when
considered in light of other evidence) and an appropriate limiting instruction was
provided to the jury. Id. at 208. The Illinois Appellate Court found the opening
statement transcript’s “mere reference to an inculpatory confession, without actual
evidence, to be similarly attenuated” to the inculpation of the defendant in
Richardson. R. 12-1 at 13. It therefore concluded that “the trial court’s instruction
that an opening statement is not evidence ha[d] the weight afforded to the limiting
instruction in Richardson, rather than the discounting of limiting instructions in
Bruton and its progeny.” Id. Finally, and in the alternative, the Illinois Appellate
Court found the error harmless “as there was ample evidence of [Armfield’s] guilt.”
Id. The Illinois Supreme Court denied Armfield’s petition for leave to appeal
(TLA”). R. 12-7.

6

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 7 of 23 PagelD #:1324

After his unsuccessful direct appeal, Armfield pursued state post-conviction
relief. The trial court and Illinois Appellate Court rejected his arguments (R. 12-2),
and the Illinois Supreme Court denied his PLA on September 28, 2016. R. 12-12. The
specific claims raised and not raised in Armfield’s post-conviction filings are
discussed in more detail below.
Armfield filed a timely, pro se 28 U.S.C. § 2254 petition in this Court on May
2, 2017. R. 8 at 1. Armfield set forth ten claims in support of his petition: (1) ineffective
assistance of appellate counsel for failure to challenge the sufficiency of evidence and
to prove that any shots fired by Armfield caused Copeland’s death; (2) ineffective
assistance of appellate counsel for failure to challenge sufficiency of guilt based on an
“accountability theory” given Armfield’s position that there was no evidence of
causation; (3) a violation of Armfield’s Sixth Amendment right to confrontation based
on the submission of the transcript of opening statements in Nelson’s trial to
Armfield’s jury; (4) prosecutorial misconduct in violation of due process based on
allegedly inflammatory statements in closing argument; (5) ineffective assistance of
trial counsel for failure to object to introduction of evidence of the attempted shooting
of Copeland earlier on the night of his death; (6) ineffective assistance of trial counsel
for failure to object to introduction of evidence of the subsequent Cook County Jail
shooting from which a weapon used in Copeland’s shooting was recovered; (7)
ineffective assistance of trial counsel for failure to object to the admission of physical
(weapons) evidence; (8) ineffective assistance of trial counsel for failure to impeach
Jenkins with prior inconsistent statements; (9) ineffective assistance of trial counsel

7

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 8 of 23 PagelD #:1324

for failure to request the redaction of portions of Floyd’s grand jury testimony
describing Armfield as a gang member; and (10) ineffective assistance of trial counsel
on the basis of “cumulative error” committed by trial counsel and the prosecution. R.
8 at 6-11.
Respondent Cameron Watson, warden of the Western Illinois Correctional
Center where Armfield currently resides, answered the petition. Watson’s answer
maintains that the petition should be dismissed because six of Armfield’s claims
(claims one, two, four, five, seven, and eight) are procedurally defaulted, three of
Armfield’s claims (claims three, six, and nine) were reasonably rejected by the Illinois
Appellate Court, and claim ten is fairly encompassed by claims six and nine. R. 11.
Following the filing of Watson’s answer, counsel appeared for Armfield and filed a
reply brief on his behalf (without amending Armfield’s original pro se petition). R. 15.
Analysis
I.

Procedural Default: Claims One, Two, Four, Five, Seven, and Eight
A.

Default

A prerequisite to this Court ordering relief on a § 2254 habeas petition is the
petitioner’s exhaustion of remedies available in state court. 28 U.S.C. § 2254(b)(1)(A).
“[A] claim [is] procedurally defaulted when a petitioner fails to fairly present his claim
to the state courts, regardless of whether he initially preserved it with an objection
at the trial level.” Richardson v. Lemke, 745 F.3d 258, 268 (7th Cir. 2014). “To fairly
present his federal claim, a petitioner must assert that claim throughout at least one
complete round of state-court review, whether on direct appeal of his conviction or in

8

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 9 of 23 PagelD #:1324

post-conviction proceedings.” Id. “In Illinois, this means that a petitioner must have
directly appealed to the Illinois Appellate Court and presented the claim in a petition
for leave to appeal to the Illinois Supreme Court.” Guest v. McCann, 474 F.3d 926,
930 (7th Cir. 2007).
Here, Armfield did not raise before the Illinois Appellate Court on post­
conviction review either theory of ineffective assistance of appellate counsel that he
raises in claims one and two of his petition. Compare R. 8 at 6 with R. 12-8 at 47-50.
He also did not present three of his theories of ineffective assistance of trial counsel
to the Illinois Appellate Court on direct appeal or post-conviction review: (1) claim
five, for failure to object to the admission of evidence of the attempted shooting of
Copeland earlier on the day of his murder; (2) claim seven, for failure to object to the
admission of weapons evidence; and (3) claim eight, for failure to impeach Jenkins.
Compare R. 12-1 and R. 12-8 at 18-41 with R. 8 at 8-10. Accordingly, all of these
claims are procedurally defaulted.
Turning to claim four—Armfield’s claim for prosecutorial misconduct violating
due process on the basis of inflammatory statements made during closing arguments
(R. 8 at 7)—Armfield did not raise this claim on direct review with the Illinois
Appellate Court or the Illinois Supreme Court. R. 12-1 at 1-14; R. 12-6 at 1-17. On
post-conviction review in the Illinois Appellate Court, Armfield challenged the
statements made in closing argument. But he made this argument only through Sixth
Amendment ineffective assistance of trial and appellate counsel claims. R. 12-8 at 3345. A Sixth Amendment ineffective assistance claim based on counsel’s failure to raise

9

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 10 of 23 PagelD #:1324

a constitutional claim is distinct from the underlying constitutional claim. See, e.g.,
Lewis v. Sternes, 390 F.3d 1019, 1026 (7th Cir. 2004). An underlying constitutional
claim is therefore procedurally defaulted when only a related ineffectiveness claim
was raised in the Illinois courts. Id. For this reason, Armfield’s claim four, which
alleges a violation of due process but not ineffective assistance, is procedurally
defaulted.2
B.

Exceptions

A procedural default can be excused “if the petitioner can show both cause for
and prejudice from the default or can demonstrate that [the] failure to consider the

2

Even if this claim was not procedurally defaulted, the Court would reject it as
meritless. Armfield challenges as “[inflammatory” and “making the case into a
[s]ocial [i]ssue” the prosecutor’s remarks at closing that Armfield and his
codefendants created fear in the community that caused several witnesses to be
reluctant to come forward and testify. R. 8 at 7; R. 12-2 at 14. Armfield emphasizes
that no evidence of witness intimidation was presented at trial. R. 15 at 21. But
Armfield has not shown (and indeed, does not argue (see id.)) that these discrete
remarks “so infected the trial with unfairness as to make the resulting conviction a
denial of due process”—the standard for showing a due process violation based on a
prosecutor’s comments in closing statement. Darden v. Wainwright, All U.S. 168, 181
(1986). When addressing Armfield’s ineffective assistance claim based on these
comments, the Illinois Appellate Court appropriately applied Supreme Court law to
find no ineffective assistance partially in light of the jury instruction that arguments
are not evidence and must be disregarded if not supported by the evidence. R. 12-2 at
15; see Darden, All U.S. at 182 (no due process violation based on comments in closing
argument in part because jury was instructed “that the arguments of counsel were
not evidence”). Nor has Armfield shown that the Illinois Appellate Court made an
“unreasonable determination of the facts,” 28 U.S.C. § 2254(d)(2), when it found that
the prosecutor’s comments were at least in part based on evidence at trial (i.e.,
evidence that the first shooting occurred during daylight hours and was witnessed by
a child). R. 12-2 at 14. And for the reasons discussed below, the Illinois Appellate
Court appropriately found that, in any event, Armfield did not establish the prejudice
required to demonstrate ineffective assistance “in fight of the overwhelming evidence
of [Armfield’s] guilt.” R. 12-2 at 15.
10

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 11 of 23 PagelD #:1324

claim would result in a fundamental miscarriage of justice.” Richardson, 745 F.3d at
272. “Cause for a default is ordinarily established by showing that some type of
external impediment prevented the petitioner from presenting his claim.” Id. And the
fundamental miscarriage of justice exception requires a petitioner to “convince the
court that no reasonable trier of fact would have found him guilty but for the error
allegedly committed by the state court.” Bolton v. Akpore, 730 F.3d 685, 697 (7th Cir.
2013).
Armfield does not even attempt to satisfy these exceptions in his briefs.
Armfield has not cited any “external impediment” preventing him from raising his
procedurally defaulted claims before the state courts. See Richardson, 745 F.3d at
272. Armfield also fails to provide the requisite “new reliable evidence—whether it be
exculpatory scientific evidence, trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial” necessary to make out a fundamental
miscarriage of justice claim. House v. Bell, 547 U.S. 518, 537 (2006). The Court
therefore finds that no exceptions apply to excuse Armfield’s procedural default of
claims one, two, four, five, seven, and eight.
II.

Preserved Claims Three, Six, and Nine (and Related Claim Ten)
Because Armfield raised claims three, six, and nine through a full round of

review (either on direct appeal or post-conviction), the Court addresses those claims
on their merits. The Court finds that claim ten is subsumed in claims six and nine
and therefore addresses it in conjunction with those claims.

11

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 12 of 23 PagelD #:1324

An application for a writ of habeas corpus shall not be granted with respect to
any claim that was adjudicated on the merits in state court proceedings unless the
adjudication of the claim:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d)(l)-(2). “A state court’s determination that a claim lacks merit
precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the
correctness of the state court’s decision.” Harrington v. Richter, 562 U.S. 86, 101
(2011) (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)).
A.

Claim Three

Claim three raises Armfield’s most significant argument—i.e., his argument
that submission to the jury of the opening statement transcript from Nelson’s trial
containing a reference to Nelson’s confession constituted a violation of clearly
established Supreme Court in Bruton applying the Sixth Amendment’s Confrontation
Clause, warranting relief under § 2254(d)(1). The Illinois Appellate Court rejected
Armfield’s Confrontation Clause argument on two bases: (1) a finding that no
reversible Confrontation Clause violation occurred; and (2) a finding that any error
was harmless. The Court considers each basis in turn.

12

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 13 of 23 PagelD #:1324

1.

Confrontation Clause Analysis

The Sixth Amendment guarantees a criminal defendant the right “to be
confronted with the witnesses against him.” U.S. Const, amend. VI. A “major reason
underlying the constitutional confrontation rule is to give a defendant charged with
[a] crime an opportunity to cross-examine the witnesses against him.” Pointer v.
Texas, 380 U.S. 400, 406-07 (1965). This principle was at issue in Bruton, the primary
case on which Armfield relies. In Bruton, the petitioner and his codefendant were
tried together for an armed postal robbery. The codefendant did not take the stand,
but the jury heard his full confession during a postal inspector’s testimony. 391 U.S.
at 124. The trial judge instructed the jury that the confession could be used as
evidence against the codefendant but not against Burton. Id.
The Supreme Court held that the admission of the confession into evidence
violated the Confrontation Clause, and that limiting instructions were incapable of
curing that violation. Id. at 135-36. It explained that “there are some contexts in
which the risk that the jury will not, or cannot, follow instructions is so great, and
the consequences of failure so vital to the defendant, that the practical and human
limitations of the jury system cannot be ignored.” Id. at 135. It continued:
Such a context is presented here, where the powerfully incriminating
extrajudicial statements of a codefendant, who stands accused side-byside with the defendant, are deliberately spread before the jury in a joint
trial. Not only are the incriminations devastating to the defendant but
their credibility is inevitably suspect, a fact recognized when
accomplices do take the stand and the jury is instructed to weigh their
testimony carefully given the recognized motivation to shift blame onto
others. The unreliability of such evidence is intolerably compounded
when the alleged accomplice, as here, does not testify and cannot be

13

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 14 of 23 PagelD #:1324

tested by cross-examination. It was against such threats to a fair trial
that the Confrontation Clause was directed.
Id. at 135-36.
Applying Bruton to this case, the Illinois Appellate Court found that although
there “was unquestionably an error by the trial court,” there was no reversible error
because of key distinctions between the situation here and the situation in Bruton.
R. 12-1 at 11-12. Namely, Bruton held that the admission into evidence of a non­
testifying codefendant’s confession that incriminated the defendant constituted a
violation of the Sixth Amendment’s right to confrontation. See id. at 12. Here, by
contrast, Nelson’s confession itself was not admitted into evidence during trial.
Instead, an opening statement referring to that confession was provided to the jury
outside of the formal evidence submission process. See id.
This Court agrees with the Illinois Appellate Court’s distinctions of Bruton.
Indeed, unlike in Bruton, Armfield’s trial was properly severed from Nelson’s.
Armfield did not “stand[ ] accused side-by-side” with Nelson and have “powerfully
incriminating extrajudicial statements [of Nelson] . . . deliberately spread before the
jury” during a witness’s testimony “in a joint trial” where Armfield was unable to
cross-examine Nelson. See Bruton, 391 U.S. at 135. Nor was the jury asked to
disregard certain testimony with respect to Armfield but not with respect to Nelson.
Compare id. Instead, as the Illinois Appellate Court properly reasoned, this case is
more like the Supreme Court’s subsequent decision in Richardson declining to find a
Confrontation Clause violation. 481 U.S. at 208. Like in Richardson, the inculpation
of Armfield was “inferential” rather than direct (see 481 U.S. at 208): it came in a
14

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 15 of 23 PagelD #:1324

paraphrase of a confession in an opening statement transcript referring generally to
Nelson’s “partners,” and not referring to Armfield by name. R. 12-14 at 12.
The Supreme Court’s application of Bruton in a subsequent case—Frazier v.
Cupp, 394 U.S. 731 (1969)—further supports the Illinois Appellate Court’s decision
here. In Frazier, the prosecutor in opening argument summarized the confessing
testimony he expected to receive from the petitioner’s codefendant. Id. at 733-34. The
State admitted “that the jury might fairly have believed that the prosecutor was
referring to [the codefendant’s] statement,” but he “did not explicitly tell the jury that
this paper was [the codefendant’s] confession.” Id. at 734. The codefendant
subsequently invoked his privilege against self-incrimination and did not testify. Id.
At the end of the trial, the court gave a general limiting instruction to the jury that
it “must not regard any statement made by counsel in [its] presence during the
proceedings concerning the facts of this case as evidence.” Id.
The petitioner in Frazier argued that his Confrontation Clause rights were
violated because “this series of events placed the substance of [the codefendant’s
confession] before the jury in a way that may well have been the equivalent in the
jury’s mind of testimony,” and as in Bruton, “the statement added substantial,
perhaps even critical, weight to the Government’s case in a form not subject to crossexamination.” Id. The petitioner therefore argued that, like in Bruton, limiting
instructions could not “cure the error.” Id.
The Supreme Court rejected these arguments, finding that “in these
circumstances the limiting instructions given were sufficient to protect petitioner’s

15

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 16 of 23 PagelD #:1324

constitutional rights.” Id. at 735. The Court highlighted four key differences between
that case and Bruton. First, “only a paraphrase of the statement was placed before
the jury.” Id. Second, the paraphrase of the confession was introduced not through
witness testimony, but through an “opening statement,” and “the jury was told that
the opening statement should not be considered as evidence.” Id. Third, “the jury was
not being asked to perform the mental gymnastics of considering an incriminating
statement against only one of two defendants in a joint trial.” Id. And fourth, “[the
codefendant’s] statement was not a vitally important part of the prosecution’s case.”
Id. The Court therefore upheld the court of appeals’s determination that the
petitioner had not been denied his Sixth Amendment rights to confrontation in a way
that warranted federal habeas relief. Id. at 737.
This case is like Frazier and unlike Bruton in each of these respects. First, only
a paraphrase of Nelson’s confession was placed before the jury. Second, the
paraphrase did not occur during witness testimony but in an opening statement, and
the jury was instructed to not consider opening statements as evidence. See R. 12-13
at 98 (jury instruction that “[njeither opening statements nor closing arguments are
evidence, and any statement or argument made by the attorneys which is not based
on the evidence should be disregarded”). Third, the jury was not asked to perform
“mental gymnastics” {Frazier, 394 U.S. at 735) by disregarding the statement when
assessing Armfield’s guilt but considering it for Nelson. Instead, the trials were
properly severed.

16

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 17 of 23 PagelD #:1324

Fourth, the statement was far from “a vitally important part of the
prosecution’s case.” See id. Indeed, the paraphrase did not occur during the opening
statement in Armfield’s trial itself as it did in Frazier, or at any other point in
Armfield’s trial. The paraphrase was therefore not part of the prosecution’s case
against Armfield at all.
It is true that the paraphrase here appears to have more directly referred to
Nelson’s confession and more directly inculpated Armfield than the paraphrase in
Frazier. But this fact does not change the Court’s analysis in light of the other close
parallels between this case and Frazier, and in light of the context in which the
statement was submitted to the jury—as a portion of one of a number of transcripts
submitted to the jury for reference after the trial concluded.
As the Supreme Court made clear in Frazier, “inadvertent[ ]” errors often occur
in trials, but only a select few amount to “reversible error unavoidable through
limiting instructions.” Id. This was not one of them. As in Frazier, the Illinois
Appellate Court properly found the general limiting instruction given by the trial
court regarding opening statements sufficient to cure any harm.
Armfield maintains that the limiting instruction that “any statement or
argument made by the attorneys which is not based on the evidence should be
disregarded” (R. 12-13 at 98) may not have worked because the jury could have found
the prosecutor’s statement “based on the evidence.” But the evidence supporting this
statement—i.e., Nelson’s videotaped confession—was not admitted into evidence in

17

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 18 of 23 PagelD #:1324

Armfield’s trial. There was thus no evidence presented at Armfield’s trial supporting
this statement by the prosecutor.
Armfield also says that the trial court should have done more to correct the
error once the issue of the inadvertent submission of opening statements along with
witness testimony was raised by defense counsel during deliberations. But defense
counsel never specifically raised with the trial court the issue of the reference to
Nelson’s confession being included in the transcript. The issue was raised only in
general terms. And the trial court already had given the proper mitigating instruction
—i.e., the instruction regarding opening statements not constituting evidence.
Compare Frazier, 394 U.S. at 734 (general instruction that statements by counsel are
not evidence was sufficient).
In sum, the Court finds that the Illinois Appellate Court did not make a
decision that was contrary to or unreasonably applied clearly established Supreme
Court law in concluding that no reversible Confrontation Clause violation occurred.
See, e.g., Evans v. Roe, 275 F. App’x 620, 621 (9th Cir. 2008) (finding that “the
California Court of Appeal’s determination that there was no deprivation of the right
of confrontation was also not contrary to or an unreasonable application of Supreme
Court precedent” where, like here, the “paraphrase of the problematic testimony . . .
placed before the jury during [an] opening statement” was distinguishable on all four
bases on which the Frazier court distinguished Bruton, and “the jury . . . was
instructed that statements made by counsel do not constitute evidence”). At the very
least, the Supreme Court cases do not give a “clear answer ... in [Armfield’s] favor”

18

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 19 of 23 PagelD #:1324

to the question of whether submission to the jury of the opening statement
referencing Nelson’s confession was reversible error, meaning that “it cannot be said
that the state court unreasonably] applifed] clearly established Federal law.” Wright
v. Van Patten, 552 U.S. 120, 126 (2008).
2.

Harmlessness Determination

In any event, the Illinois Appellate Court further determined that any error
was harmless. R. 12-1 at 13. And this harmlessness determination is entitled to
substantial deference under § 2254(d). Armfield “must show that the state court’s
[harmlessness determination] was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Davis v. Ayala, 135 S. Ct. 2187, 2199 (2015).
Here, the Court finds that the Illinois Appellate Court reasonably concluded
that there was “ample evidence of [Armfield’s] guilt.” R. 12-1 at 13-14. This evidence
included Vinson’s testimony that Armfield and Nelson fired the shots at Copeland’s
vehicle that killed him (R. 12-2 at 2), and Jenkins’s corroborating testimony about
seeing two men shoot at Copeland’s vehicle (id. at 2-3). The evidence also included
Floyd’s grand jury testimony that Armfield exited Floyd’s car when Randall
instructed him to “take care of business” and returned with a gun in hand shortly
after Floyd heard gunshots, and he told Floyd he had shot his gun. Id. at 10-11. And
it included Robinson’s testimony placing Armfield at the scene of the earlier
attempted shooting of Copeland, and Williams’s identification of Armfield in a line­
up as being present during that shooting. Id. at 4.

19

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 20 of 23 PagelD #:1324

None of these witnesses’ additional testimony on which Armfield focuses
meaningfully undermine the strength of their testimony against him. See R. 12-15 at
53, 58 (Vinson testifying that he did not remember if he told the police he saw the
shooters when he met with the police the night of the shooting); R. 12-15 at 70-79
(Jenkins never asked to identify Armfield); R. 12-15 at 81-91 (Williams testifying that
he identified Armfield to the police as a man “standing in the alley” during the earlier
shooting, but “wasn’t for sure if he was with them or not”); R. 12-15 at 109 (Robinson
testifying that during the earlier shooting, she wasn’t sure if Armfield was on the
same side of the street as Nelson and Randall).
Armfield emphasizes the jury’s note on the second day of deliberations that it
had reached an impasse as evidence that any error was not harmless. Armfield
implies that the jury was hung before receiving the transcripts and then reached a
verdict after receiving them, showing their prejudicial effect. But those are not the
facts. The jury reported that it reached an impasse after receiving the transcripts.
Then the trial court gave the renewed instruction about the jury’s duty to deliberate.
If was after this instruction that the jury reported making progress and ultimately
reached a verdict. The Court therefore finds, in the alternative, that the Illinois
Appellate Court did not make “an error well understood and comprehended in
existing law” in determining that any error was harmless in fight of the strength of
the evidence against Armfield. See Davis, 135 S. Ct. at 2199.

20

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 21 of 23 PagelD #:1324

B.

Claims Six, Nine, and Ten

In claims six and nine, Armfield asserts ineffective assistance of trial counsel—
first, in failing to object to the admission of evidence related to the subsequent
shooting in front of Cook County Jail (claim six), and second, in failing to redact
references to Armfield’s membership in a gang in Floyd’s grand jury testimony
submitted to the jury (claim nine). R. 8 at 9-11.
To show that counsel was ineffective, Armfield must prove (1) “deficient
performance—that the attorney’s error was ‘so serious that counsel was not
functioning as the counsel guaranteed the defendant by the Sixth Amendment’”; and
(2) “that the attorney’s error ‘prejudiced the defense.’” Weaver v. Massachusetts, 137
S. Ct. 1899, 1910 (2017) (quoting Strickland v. Washington, 466 U.S. 668, 687 (1984)).
Scrutiny of an attorney’s performance is “highly deferential.” Strickland, 466 U.S. at
689. Even “professionally unreasonable” errors do not warrant “setting aside the
judgment of a criminal proceeding” if the error in question “had no effect on the
judgment.” Id. at 691.
With respect to both claims, the Illinois Appellate Court bypassed the first
prong of Strickland and determined for purposes of the second prong that Armfield’s
“ineffective assistance of trial counsel claims fail because he cannot show that he was
prejudiced by counsel’s alleged deficient performance” in fight of the substantial
evidence of Armfield’s guilt. R. 12-2 at 9. For the reasons already explained, the Court
finds that this determination did not unreasonably apply Strickland’s standard or
make an unreasonable determination of the facts. The Illinois Appellate Court

21

Case: l:17-cv-03331 Document #: 23 Filed: 11/27/18 Page 22 of 23 PagelD #:1324

reasonably concluded that Floyd’s romantic relationship with Randall could have
been easily found by the jury to explain why she recanted at trial. Id. at 11. And it
reasonably concluded that this recantation in no way undermined Vinson’s testimony
that Armfield participating in shooting Copeland, Jenkins’s partially corroborating
testimony, and Williams’s and Robinson’s testimony that Armfield was at the scene
of the attempted shooting of Copeland hours before Copeland’s murder. Id. at 10-11.
The Court therefore finds that claims six and nine do not present grounds for federal
habeas relief. The Court further finds that Armfield’s claim ten for cumulative impact
fails for the same reasons. See Williams v. Lemmon, 557 F.3d 534, 538 (7th Cir. 2009)
(ineffective assistance habeas claim necessarily entails “evaluat[ing] the entire
course of the defense”).
III.

Certificate of Appealability
Rule 11(a) of the Rules Governing § 2254 Cases provides that the district court

“must issue or deny a certificate of appealability when it enters a final order adverse
to the applicant.” A habeas petitioner must make a “substantial showing of the denial
of a constitutional right” to obtain a certificate of appealability. 28 U.S.C. § 2253(c)(2).
This demonstration includes “includes showing that reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have been resolved in a
different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). In
other words, “the petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.’” Miller-

22

Case: l:17-cv-03331 Document#: 23 Filed: 11/27/18 Page 23 of 23 PagelD #:1324

El v. Cockrell, 537 U.S. 322, 338 (2003). Because this Court does not believe that
reasonable jurists would disagree as to its resolution of Armfield’s petition, the Court
declines to issue a certificate of appealability.
Conclusion
For the foregoing reasons, this Court denies Armfield’s § 2254 petition [1, 8]
and declines to issue a certificate of appealability.
ENTERED:

Honorable Thomas M. Durkin
United States District Judge
Dated: November 27, 2018

23

Case: l:17-cv-03331 Document#: 12-12 Filed: 11/16/17 Page 1 of 1 PagelD#:415

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721

September 28, 2016

Hon. Lisa Madigan
Attorney General, Criminal Appeals Div.
100 West Randolph St., 12th Floor
Chicago, IL 60601
No. 121165

- People State of Illinois, respondent, v. Russel Armfield, petitioner. Leave to appeal,
Appellate Court, First District.

The Supreme Court today DENIED the petition for leave to appeal in the above entitled cause.
The mandate of this Court will issue to the Appellate Court on November 2,2016.

- SA812 APPENDXX C

(ORDER LIST: 589 U.S.)

THURSDAY, MARCH 19, 2020

ORDER

In light of the ongoing public health concerns relating to COVTD-19, the
following shall apply to cases prior to a ruling on a petition for a writ of certiorari:
IT IS ORDERED that the deadline to file any petition for a writ of certiorari
due on or after the ^ate of this order is extended to 150 days from the date of the
lower court judgment, order denying discretionary review, or order denying a timely
petition for rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds
for the application are difficulties relating to COVID-19 and if the length of the
extension requested is reasonable under the circumstances. Such motions should
indicate whether the opposing party has an objection.
IT IS FURTHER ORDERED that, notwithstanding Rules 15.5 and 15.6, the
Clerk will entertain motions to delay distribution of a petition for writ of certiorari
where the grounds for the motion are that the petitioner needs additional time to file
a reply due to difficulties relating to COVID-19. Such motions will ordinarily be
granted by the Clerk as a matter of course if the length of the extension requested is
reasonable under the circumstances and if the motion is actually received by the
Clerk at least two days prior to the relevant distribution date. Such motions should
indicate whether the opposing party has an objection.

/APPENDIX O

Mar-18-05

T-B81 P.002/006 F-258
I 17 AUG 04 , 2103HQU

+3127464281

From-011 DISTRICT - CHICAGO PD

23:00

ItkUVIH WlllV.

CHICAGO POLICE____________________

|

FIRS?°lffi£ffi£ MURDER

4605 S. LECLAIRE

! 0110
t

b VICTIM'S/SUBJECTS NAME A6 BflOWN ON LAST PREVIOUS REPORT

• 4645 SOUTH LAMON ST.
>
£
o

E

I □t c
I
iDn

i Dr

□t s

OCONSUM. GOOt S

1
I

i

(.» FIREARMS

I □t s

□t S
i Or

□r

jg)l YES 02 NO

Gl YES K3?NO

6175A
‘LOCATION CODE
1

\ 304
1

FilL
REPORTED^O^T'h^O °iGKjALFC^r PPPnRT PHTTlf LA^Pn^lV?0Eia°UPp1lEMENT/&V REPORT1"
PPOPERTY INVENTORY NOIE).
1 7 OFFICE EQUIPMENT*
B Tv. RAOiO.STCHCO
I
l
I
I □t £
I □t 6
I Dt s
iDn
______
1 Gr
iQ
r
6 NONE
! * NARCJDANGEROUS DRUGS 15 OTHER
1
1
I
l
I
4 CLOTHING

3 PUPS

□

9 HOUSEHOLD ODOOl*

7. BEAT ASSIGN £p

STREET

OESCRIBC PROPERTY IN NAHRATIVE
T« TAKEN;
R-MCCOVOREO
I 2 JEWELRY
1 MONEY
I
t s
l □t S

□r

6. FIRE RELATED

B. TYPE OF LOCATION OR PREMISE WHERE INCIDENT/OFFENSE OCCURRED

0 VICTIM'S/SUBJECTS ADDRE8B

10.

0814
‘CORRECT

I

AKA "POOH POOH"

COPELAND, AL

3. BEAT OP OCCUU.

l 1-uCft OFl' cOnt 7. AODREBfi OF ORiG. InCiDEnT/OFFEnSE JQi VERIFIED Q2 CORRECTED

• IN Cl OE NT/OFFENSE CLASSIFICATION LASTPREVlOUS REPORT

iOn

□t
□r

□t

b

e

>SY
»D

1 Dr

r

13. SEX-RACE -AGE
COOP

17. NOME ADDRESS

11. OFFENDER’S NAME (OR DEScRlCi; C LOTHING, ETC.I

HEIGHT

wElGKT

CYES

HAIR

COMP

1

to

2

UJ

5U.

I.R.NO., YJ?. NO.
OR J D A

14. C.fi. NO.

OFFENO0H
REL CODE

o
OFF.

OFF.

1

2

1G. OFFS. VEHICLE j YEAR. \ MAKE
l
l
I
□used □stolen!

BODYSTYLE

1 COLOR
I
I

OFFENDB3 15, NO. I AflRE
REL. CODE ARRESTED l^NlT I

lA.NO-TJ. NO.
on J P A NO

C.B. NO.

I
I
I STATE LICENSE NO.
l
I

V.I.N.

* ETA'

J
*60. NARRaYiuC

R/O'S OF THE PROJECT SAFE NEIGHBORHOODS GUN TASK FORCE EXECUTED SEARCH WARRANT #05SW4813
UNDER RD#HL-244227 OH 19MAR05 @ 1437 HOURS. R/O'S UPON DEBRIEFING THE FOLLOWING SUBJECTS

DETERMINED THAT BOTH SUBJECTS HAD INFORMATION REGARDING AN OPEN/ASSIGNED HOMICIDE
TNVKSTTGATTON UNDER RD # KK-564454.
L
SUBJECT #1: VINSON 1 CALSHAUN M/1/21 D.0.B.11JUN83 S.S.#341-74-3414
20 17TH ST.; MAYWOOD, IL (708) 410-1021
SUBJECT #2: WALKER, TUYKIMA F/l/21 D.O.B. U9JUL83 S.S- # 345-72-8186
(77^ Tna-9fiRO
------------- ——4704 W, M-7-TH ST. (BASEMENT) CHICAGO,-XT—60629
R/n'S CONTACTED AREA 1 HOMICIDE. GANG, ROBBERY DETECTIVE DIVISION AND DETECTIVE'S
STRUCK #20857 AND O'DONNELL #60029 SUBSEQUENTLY RESPONDED AND INTERVIEWED BOTH
-SUBJECT'S WHICH PROVIDES—STATEMENTS.----------------------- -----------------------------------------------------

ASSISTING UNITS: BT 6175B P.0. C. WILLIAMS #17004, P.O. T. HENRY #18642
BT M76A P.O. D. GREENWOOD #15128,. P.O. C. BAUMAN #15110
RT liV76B P.O. T. OLTVKR
:
BT (.176 SGT. L. MANN #1717
—-------------- -------- BT-^r9H—Hh—r. WHEAT #2-&U

n continued
l—1 OTHEft ®DC
90, CXTRA COPIES REQUIRED (NO. A RECIPIENT)

✓ <

B1. DATE THIS ftEPORT SUBMITTED• DAY
MO.
YM.

AREA 1/HGR

19

S3, REPORTING OFFSCCR (PRINT NAME)

rrAS f.o.

ILPA2 #7567

a

CPtHtfAII-A (R6V.B/651

MAR

05

IM, REPORTING OFFICER (PRINTNAMCI

TIME

92. SUPERVISOR APPROVING (PRINT NAME)

2100

SGT,. L. MANN

STAR NO.

?l<

E. TORRES #15049

A—-~

"J.

JSTBATStoPPRGJ^D |DaY—MO.-YRJ

19
•MUST dt COMPLETED IN ALL CASES

&PPendix E

MAR

05

STAR NO.

#1717

time

2130

. State of Illinois
Circuit Court of Cook County
Criminal Division
James M. Schreier
Judge

2600 South California Avenue
Chicago, Illinois 60608
(773) 869-3170

TfeJwy

fmm5

' °Rote hft
{JedDlcj-SWCF
t

cmr i

o us

yoo

C/gLlcc^ /Asfj

■tiboui jf.ii] ■
V

.o

ivc oAl :/fii C
/

,

'

\J

V

,

/f

suftst /nj-f A-f 'A V&rd?oF

fslZJ
% 6 [KJ

- H Cti45f&
°<s8

JUfi

of/fpfr

?Oo;

GROUP

APPeridXX

i

(R

C

105

i

I

LUU

l

u>
A.

<
i

•H
•H
•H

*
(>
-;

V

JtJN 1.5 2007
'X.J'ROWn
~CLERK
°rofthe
""jlfyjjfifiyncourt

l

THE COURT:

2

MR. COHN:

I can't

a little louder.

Ori g;inal1y, the State told me

3

they were not going to call Mr. Williams, but they

4

have a right to change their mind,

5

advance, I only got this notice Thursday or Friday

6

of last week, maybe Wednesday, I could have done

7

more of a background check as to Mr. Williams.

8

THE COURT:

9

MR. COHN:

ll

Is he on the list of witnesses?
He is on the list of witnesses.

MR. LEAFBLAD:

10

But if I knew in

He is on our answer to

discovery too, Judge.
MR. COHN:

12

He is on the list of discovery.

The other argument I make is I called

13
14

Mr. Williams.

Two of the people he saw did

15

something.

16

it in front of me.

17-

copy .

I have to get the motion.

I don't have

If I could borrow the State’s

18

MR. LEAFBLAD:

19

THE COURT:

20

MR. LEAFBLAD:

It has my notes

Here.
In a nutshell, basically,

21

what Williams sees is he sees Tyrene Nelson hand

22

Kimothy Randall a handgun.

23

fires on a car with A1 Copeland inside it, A1

24

Copeland who is our victim in the homicide later

Kimothy Randall then

APPencUX^

12-C

PGfcFa

1

that day.

2

MR. COHN:

3

MR. LEAFBLAD:

4

MR. COHN:

Well, he says he sees Randall

standing there

7

MR. LEAFBLAD:

8

MR. COHN:

9

He says he sees Randall as

acting as kind of like a look out.

5
6

He does not see

Right
on the corner.

Doesn't see

Randall doing anything, talking to the other people,

10

making any gestures.

11

admissible against Nelson and Armfield, I don't

12

think it would be admissible against Randall.

13

THE COURT:

So even if this happens to be

Motion to admit evidence of

14

this other crime, this other incident will be

15

allowed over objection.

16
17
18
19
20
21

MR. SOSMAN:

as far as that because it affects my client as well.
THE COURT:
your jury.

You may -- wait until we pick

You know my inclination.

MR. SOSMAN:

I have a completely different

line of argument, Judge.

22

THE COURT:

23

MR. SOSMAN:

24

Judge, may I have a statement

this two days ago.

Do you have it in writing?
Judge, I was just served with
I don't have it in writing.
APPendiXfG) PG a of a
13-C

I

HK564454
DETECTIVE SUP. APPROVAL COMPLETE

INTERVIEWED:
Tykima Walker
Ayeshia Floyd
Lucille Floyd
Calshaun Vinson
Sinquis Prosper
Tyrene Nelson
Kimothy Randall
Russell Armfield
Willie WILLIAMS

t
M

INVESTIGATION:
This report is to be read in conjunction with all other reports previously genierated under Record ^
Division Numbers HK-564454, HK- 564532, HK-564659, and HK-56406^^fcli241792. This^
report is a summarization of the investigation and interviews. All interviews are in essence>and noi
to be considered verbatim. This report is a continuation of an on-going investigation.

m

Qn.19.Mar 2005, the A/4 Gun Team, PO F. Paz#7567 and PO E. Torres #15049 contacted the
undersigned. They related that they, had executed a Search Warrant and arrested severa!
individuals. While they were processinglandJiebriefinQTn'eigiT^gmes they wnrp~infnrmp>rl hyTygHTia
WAGNER and Calshaun VINSON that thev~T?ad~1n^)rmation in regards to a Homicide thaTTTad
occurred in LeClaire Courts in August of 2004. VINSON and WALKER were able to provide them
with the victims namTandlRgylhencontacted A/1 in regards to the COPELAND Homicide. The
undersigned then responded to A74 tor tne purposes of this investigation.
Upon arrival the undersigned spoke with Officers Paz and Torres, who related that WALKER and
VINSON were willing to cooperate with this investigation. The undersigned was then directed tc
both WALKER and VISNON who agreed to be interviewed.

r

The undersigned interviewed WALKER who related the following information: She stated that she
had not actually witnessed the Homicide however one of the offenders known to her as Tyrene
NELSON "TY" had made statements in regards to the COPELAND Homicide. She stated that "TV
was like a brother to her and that she has known him almost his entire life. She stated that
NELSON had called her in November of 2004, and told her that he had killed "Poo-Poo", back in
August. She stated that "Poo-Poo" was Al Copeland and that she knew the victim and his family.
She stated that She stated that NELSON had made a comment to her during the conversation that
"You all keep fucking with me and I'm going to fuck you up like I did to Poo-Poo." She further
stated that NELSON had made comments about getting "Pqo-Poo" in the head.
She then related that on 18 Mar 2004, she had seen NELSON in a car, along with several other]
males near her house and that she had felt threatened. She stated that one of the guys in the ca.
was "Calbo" nka Calvin ARMFIELD, She stated that when she left the house NELSON had chased
that they had shot_at^jh^yphicle she was driving. She stated that they• chased1 her down
The expressway and that she was calling the police on her cell phone. She stated that she ther /\
'drove to CookCountyTainovisit her boyfriend, "JK" nka Gregory Wright CPD IR# 1360149. She \
^ ^at ^*e car
over and parked near the jail. She stated that when she went into the jail
anc

Printed On: 30-APR-2005 18:33

12 of 24

APPe.nXt H

Printed By: O DONNELL, Michael ( PC0J271
Mar 24,2010

6:38 AM

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 1 of 15 PagelD#:80

2015 ILApp (1st) 130010-U
SECOND DIVISION
June 7, 2016
No. 13-0010
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT
PEOPLE OF THE STATE OF ILLINOIS,
Respondent-Appellee,
v.
RUSSEL ARMFIELD,
Petitioner-Appellant.

)
)
)
)
)
)
)
)
)

Appeal from the Circuit Court
of Cook County.
05 CR 9216(02)
Honorable Lawrence Edward Flood
Judge Presiding.

JUSTICE SIMON delivered the judgment of the court.
Presiding Justice Pierce and Justice Hyman concurred in the judgment.
ORDER
11

H2

Held: The trial court did not err in dismissing petitioner's second stage postconviction
petition. Petitioner failed to make a substantial showing of constitutional violations.
Petitioner failed to establish that he was prejudiced by counsel's alleged deficient
performance. Postconviction counsel provided reasonable assistance to petitioner.
Petitioner Russell Armfield appeals from a judgment of the Circuit Court of Cook

County denying his postconviction petition at the second stage proceedings. For the following
reasons, we affirm.

APPENtffX X

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 2 of 15 PagelD #:80
No. 13-0010
13
14

BACKGROUND
Following a jury trial, petitioner was charged and convicted of first degree murder and

sentenced to 33 years in the Illinois Department of Corrections. Petitioner's conviction and
sentence were affirmed on direct appeal. People v. Russell Armfield and Kimothy Randall, No.
1-07-2902 & No. 1-07-2903 (2009). The factual background underlying petitioner's conviction
was recounted in our previous decision on direct appeal. Id.
15

In relevant part, the following evidence was presented at petitioner's trial. A1 Copeland

was shot and killed on August 17, 2004. Calshaun Vinson testified that he was a friend of A1
Copeland and also knew petitioner and codefendants Kimothy Randall and Tyrene Nelson. At
about 9 p.m., Vinson saw Copeland driving with his girlfriend and their children near 47th Street
and Cicero Avenue. Vinson also saw a car driven by a woman he knew as "Ride" and occupied
by petitioner and codefendants. A short time later, Ride's vehicle stopped, petitioner and Nelson
got out and ran towards 46th and Leclaire Avenue. Vinson heard several gunshots from that
direction and saw petitioner and Nelson firing at Copeland's vehicle. Vinson spoke with the
police later that night, although he did not recall what he told the officers.
16

Vinson admitted that he was arrested on March 19, 2005, on a weapons charge that was

dismissed at the preliminary hearing. Following his arrest, he spoke with the police about
Copeland's murder. Vinson denied that he had been promised anything regarding his weapons
charge in exchange for his cooperation. On cross-examination, Vinson stated that he had not
spoken with the police about the instant case between the night of his murder and his own arrest.
17

Kawana Jenkins testified that she was Copeland's girlfriend. At about 9 p.m. on august 7,

2004, Copeland dropped her and her children off at her home near 46th and Leclair. Copeland

Codefendant Kimothy Randall was tried jointly with defendant, while codefendant Tyrene Nelson was tried
simultaneously but by a separate jury. Both codefendants were also convicted of first degree murder.

2

Case: l:17-cv-03331 Document#:: 12-2 Filed: 11/16/17 Page 3 of 15 PagelD #:80
No. 13-0010
had driven a short distance when a man flagged him down. When Copeland stopped, Jenkins
heard gunshots and saw Copeland speed away. When Copeland's vehicle reached the comer,
another man fired several shots at Copeland's car and ran into a parked car. Jenkins found
Copeland slumped over the steering wheel, motionless. Copeland died before he reached the
hospital. The cause of death was determined to be from five gunshot wounds.
H8

Ayeshia Floyd testified that she was also known as "Ride" and she knew petitioner and

codefendants. Floyd testified she was riding aimlessly around in her vehicle, smoking marijuana
with petitioner and the codefendants. She specifically denied being in the area of 45th and
Leclaire until late in the evening. However, Floyd could not recall when the group returned
because she was under the influence of marijuana.
f9

Floyd admitted that she spoke to police in March 2005 but denied telling them that

codefendant Randall saw a man "had gotten into it with" earlier in the day and told petitioner and
Nelson to "take care of business." Floyd denied telling police that Nelson and petitioner later left
her car and walked toward Leclaire and that she heard gunshots from that direction. She also
denied telling police that petitioner and Nelson were carrying guns when they returned to her car.
Floyd also denied and could not recall that she so testified before the grand jury. Floyd also
testified that during her police interview, she was threatened with imprisonment for minder on a
pending narcotics case if she did not cooperate.
K 10

The parties stipulated that Floyd's testimony before the grand jury was substantially as

she denied at trial, and also that she denied in that that testimony that she had been coerced or
promised anything in exchange for her testimony. Floyd's claim that she was coerced was
rebutted by Detective Walter Chudzik and Detective Michael O'Donnell who testified that they
did not threaten or promise her anything in exchange for her statement. Former Assistant States

3

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 4 of 15 PagelD #:80
No. 13-0010
Attorney Bryant Hofeld testified that he m et with Floyd at the police station but did not take a
statement from her because she was taken directly to the grand jury. Hofeld testified that he did
not threaten or promise Floyd anything in exchange for her testimony, nor hear anyone else make
such a threat or promise, nor did Floyd tell him that she had been threatened.
111

Willie Williams testified that about 6:00 p.m. on August 17, 2004, he was walking near

45th and Lavergne Avenue when he saw Nelson pushing Randall in a wheelchair. As a gray
vehicle and another vehicle passed them, Nelson handed Randall a pistol which Randall fired at
the vehicles. Williams did not report the shooting to the police but did speak to them within a
week of the incident. Williams testified that petitioner was also in the area near an alley.
Williams admitted that he gave a statement at the police station in April 2005 where he told the
police that he thought petitioner was acting as a lookout. Williams denied using heroin at the
time of the shooting or during his statement to police, but admitted he had taken heroin on the
day of trial.
If 12

Yakirah Robinson testified that, at about 6 p.m. on August 17, 2004, she saw petitioner

and codefendants as she was driving near 45th and Lavergne with her fiance and 1-year-old
daughter in the car. She saw Nelson pushing Randall in his wheelchair, while petitioner was
standing nearby. Robinson heard several gunshots and drove away. She went around the comer,
parked her car, got out and saw that her car had been shot on the passenger side near her baby's
car seat. She ran with her baby into her grandmother's house. When she came back, she saw
that A1 Copeland was talking with the police because his car had also been shot. Robinson made
a police report at that time, but later signed a refusal to prosecute.
13

Sinquis Prosper, codefendant Randall's sister, testified that on August 17, 2004, between

8:00 and 9:00 p.m., she received a call from Randall, requesting that she get a hoody and two

4

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 5 of 15 PagelD #:80
No. 13-0010
"pee bags" that he needed for his medical condition. Prosper retrieved the items and brought
them out front to Randall, who was sitting in his girlfriend's car outside of their grandmother's
house. Randall's girlfriend, also known as "Ride," codefendant Nelson, and petitioner were with
Randall in the car.
14

At trial, Prosper testified that there was nothing unusual about the hoody that she gave to

her brother. She also testified that about an hour later, she stepped outside of her house with her
neighbor Chris, when she heard a car crash, but denied going down the street to check it out. She
did not recall whether Chris got shot. Prosper admitted that she spoke with the police and ASA
Brian Hofeld in March 2005. Prosper admitted that she told them that: they were hard, heavy
objects in the hoody that she gave to her brother; she and her neighbor went down the street after
the crash; that she helped a woman pull a boy out of the car; that the boy had blood on him and
she thought he had been shot; that somebody started shooting in their direction while she and
Chris were by the car, and Chris got shot in the leg; and that Randall later asked her if Chris got
shot. Prosper testified that her grandmother was present when she spoke with the police and
ASA Hofeld and that both of them signed her handwritten statement that memorialized her
interview with them. Prosper testified at trial that everything she told the police and ASA Hofeld
other than giving Randall his hoodie and pee bags was a lie.
f 15

Prosper also admitted that she testified before the grand jury in March 2005. Her

testimony before the grand jury was consistent with her statements made to the police. Prosper
claimed that she lied before the grand jury because the ASA and the police threatened her that if
she did not cooperate with them she would go to jail. ASA Hofeld and Michelle Papa testified
that nobody threatened Prosper.

5

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 6 of 15 PagelD #:80
No. 13-0010
K 16

The State introduced testimony regarding another shooting that involved codefendant

Nelson. Tykima Walker testified that she was driving to the county jail on March 18, 2005, to
visit her boyfriend Gregory Wright. She noticed she was being followed by a Pontiac Grand
Prix containing Nelson and three other men. Nelson and one of the other men fired shots at her
vehicle.
^| 17

Officer Frank Ramaglia testified that on the early afternoon of March 18, 2005, he

responded to call of a man with a gun in a Pontiac Grand Prix in the vicinity of the county jail.
When he arrived, Officer Ramaglia saw the sole occupant of the car with a submachine gun at
his feet. Following the occupant's arrest, a 9 millimeter and .40 caliber pistols were also
recovered from the car. Forensic scientist Melissa Nally, who processed the weapons, testified
that she compared tests shots from the guns recovered from the Grand Prix to the fired evidence
from Copeland's murder scene. The 9 millimeter cartridge cases from Copeland's murder scene
were fired from the 9 millimeter pistol recovered from the Grand Prix.
U 18

The jury found petitioner guilty of first degree murder. The trial com! sentenced

petitioner to 33 years of imprisonment. Petitioner's convictions and sentence were affirmed on
direct appeal. People v. Russell Armfield and Kimothy Randall, No. 1-07-2902 & No. 1-07-2903
(2009).
f 19

On March 23, 2010, a typewritten petition was filed bearing petitioner's name and that of

codefendant Randall. Petitioner raised numerous allegations of ineffective assistance of counsel,
claims of trial court errors and prosecutorial misconduct. On March 29, 2010, petitioner filed
another handwritten post-conviction petition raising various claims of ineffective assistance of
trial counsel and appellate counsel, claims of trial court's errors, and prosecutorial misconduct.

6

Case: l:17-cv-03331 Document #: 12-2 Filed: 11/16/17 Page 7 of 15 PagelD #:80
No. 13-0010
H 20

On July 27, 2011, postconviction appointed counsel filed a certificate indicating his

compliance with Supreme Court Rule 651(c). Postconviction counsel did not amend or
supplement the pro se pleadings. On August 22, 2012, the State filed a motion to dismiss
petitioner's postconviction petition. Following the hearing on the State's motion to dismiss, the
trial court granted the State's motion denying petitioner's claims. This appeal follows.

121
1f 22

ANALYSIS
The Illinois Post-Conviction Hearing Act (Act) provides a process by which a criminal

defendant may challenge his or her conviction. 725 ILCS 5/122-1 et seq. (West 2012). A
postconviction action is a collateral attack on a prior conviction and sentence, "not a substitute
for, or an addendum to, direct appeal." People v. Kokoraleis, 159 Ill. 2d 325, 328 (1994). To be
accorded relief under the Act, a defendant must show there was a substantial deprivation of his
or her constitutional rights in the proceedings that produced the conviction. People v. Pendleton,
223 Ill. 2d 458, 471 (2006). The Act "provides for postconviction proceedings that may consist
of as many as three stages." Id. at 472. During the first stage, the trial court has 90 days to
summarily dismiss any "frivolous" petitions. Id. If not dismissed, the petition advances to the
second stage. Id. During second-stage proceedings, counsel may be appointed for the defendant
and the State may move to dismiss the petition or answer its allegations. Id. If the petition is not
dismissed at the second stage, it advances to the third stage and an evidentiary hearing is held.
Id. at 472-73.
H 23

A second-stage dismissal of a defendant's petition presents a legal question we review de

novo. People v. Whitfield, 217 Ill. 2d 177, 182 (2005). The relevant question raised during a
second-stage postconviction proceeding is whether the petition's allegations, supported by the
trial record and accompanying affidavits, demonstrate a substantial showing of a constitutional

7

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 8 of 15 PagelD #:80
No. 13-0010
deprivation, which requires an evidentiary hearing. People v. Coleman, 183 Ill. 2d 366, 381
(1998). All well-pled facts in the petition and affidavits are taken as true, but assertions that are
really conclusions add nothing to the required showing to trigger an evidentiary hearing under
the Act. Id. The Act does not provide a defendant with an opportunity to retry the case. People
v. Evans, 186 Ill. 2d 83, 89 (1999). Issues that could have been raised on direct appeal, but were
not, are procedurally defaulted. People v. Williams, 209 Ill. 2d 227, 233 (2004). As a reviewing
court, we can "affirm the trial court on any basis supported by the record." People v. Lee, 344
Ill. App. 3d 851, 853 (2003). We review the trial court's judgment, not its reasoning. Id.
U 24

On appeal, petitioner argues that the trial court erred in dismissing his second stage

postconviction petition because he made a substantial showing that his trial counsel provided
ineffective assistance of counsel for (1) failing to request the redaction of Ayeshia Floyd's grand
jury testimony, which identified petitioner as an alleged gang member; (2) failing to move to
exclude the prejudicial testimony of another shooting not involving petitioner but involving
codefendant Nelson which led to the recovery, among others, of the weapon used in Copeland's
murder; and (3) for failing to object to the State's improper closing argument, which, according
to petitioner, was inflammatory and prejudicial. In addition, petitioner argues that his
postconviction counsel provided him with ineffective assistance for failing to amend petitioner's
postconviction petition to allege that his appellate counsel was ineffective. Petitioner claims that
appellate counsel should have raised on appeal the trial court's error in denying his motion for
mistrial based on the prosecutor's inflammatory and prejudicial closing argument.
f 25

Generally, the failure to raise a claim of ineffectiveness of trial counsel in the direct

appeal renders the issue waived in post-conviction proceedings. People v. Wilson, 307 Ill. App.
3d 140, 145 (1999). However, a claim of incompetence of counsel in a post-conviction

8

Case: l:17-cv-03331 Document #: 12-2 Filed: 11/16/17 Page 9 of 15 PagelD #:80
No. 13-0010
proceeding will not be barred where, as here, the attorney who represented the defendant at trial
also represented the defendant on direct appeal. See id.
26

To prevail on a claim of ineffective assistance of counsel, a defendant must satisfy the

two-pronged test set forth in Strickland v. Washington, 466 U.S. 668 (1984). Specifically, “a
defendant must prove that defense counsel's performance fell below an objective standard of
reasonableness and that this substandard performance created a reasonable probability that, but
for counsel's errors, the result of the proceeding would have been different.” People v. Graham,
206 Ill. 2d 465,476 (2003). We apply the two-pronged Strickland test where the trial court has
entered a second-stage dismissal of an ineffective assistance of counsel claim. People v. Alberts,
383 Ill. App. 3d 374, 377 (2008); Coleman, 183 Ill. 2d at 400.
1} 27

Unless the defendant makes both showings under Strickland, we cannot conclude that he

received ineffective assistance. See People v. Munson, 171 Ill. 2d 158, 184 (1996). Courts may
resolve ineffectiveness claims under the two-part Strickland test by reaching only the prejudice
component, for lack of prejudice renders irrelevant the issue of counsel's performance. People v.
Coleman, 183 Ill. 2d 366, 397-98, (1998); Graham, 206 Ill. 2d at 476 ("[I]f an ineffectiveassistance claim can be disposed of because the defendant suffered no prejudice, we need not
determine whether counsel's performance was deficient."); People v. Hale, 2013 IL 113140, ^
17.
U 28

Here, petitioner's ineffective assistance of trial counsel claims fail because he cannot

show that he was prejudiced by counsel's alleged deficient performance. In order to establish the
prejudice prong, a petitioner must show that there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have been different. Graham,

9

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 10 of 15 PagelD #:80
No. 13-0010
206 Ill. 2d at 476. A reasonable probability is a probability sufficient to undermine confidence in
the outcome. People v. Enis, 194 Ill. 2d 361, 376 (2000).
T[ 29

Here, the State presented overwhelming evidence of petitioner's guilt and even assuming

that trial counsel's performance was unreasonable for the reasons argued by petitioner, petitioner
failed to establish that there is a reasonable probability that the result of his trial would have been
different. Eyewitness Vinson testified that he was in the area and he saw petitioner, codefendant
Nelson, and codefendant Randall in a car before the shooting. Vinson then testified that he saw
petitioner and Nelson get out of Floyd's car and shoot at Copeland's vehicle. Venison's
testimony was substantially corroborated by Jenkins, Copeland's girlfriend, who testified that she
saw two people shooting at Copeland's vehicle.
Tf 30

Floyd also corroborated Vinson's account in her statement and grand jury testimony

although she recanted her statements at trial. Floyd testified that petitioner, Randall, and Nelson
were together in her car in the evening hours of the day of the shooting. Floyd testified before
the grand jury that: she was driving Randall around the neighborhood when Randall saw
someone he had "been into it with" referring to Copeland; petitioner and Nelson were also
passengers in her car; she drove them all to Randall's house; they drove back to Leclair where
she saw Copeland and his girlfriend; petitioner and Nelson exited the car after Nelson told them
to "take care of business" which Floyd understood to mean that they should shoot Copeland;
after petitioner and Nelson got out of the car, she heard gunshots and she and Randall drove
away; Randall ordered her at gunpoint to return to the alley where petitioner and Nelson had left
the car; she saw petitioner and Nelson armed with handguns when they returned to the alley;
petitioner admitted that he fired his gun, but complained that Nelson did not shoot until after
petitioner did; she drove off from the alley with all three of them and headed toward the

10

Case: l:17-cv-03331 Document #: 12-2 Filed: 11/16/17 Page 11 of 15 PagelD #:80
No. 13-0010
expressway; Randall apologized to her for involving her in the incident and instructed her to tell
the police, if they asked, that she had let him use her car; during the ride Randall told Nelson not
to involve Floyd if the police asked about what had happed.
31

Floyd's recanted statements corroborated the eyewitness testimony in the case because it

placed petitioner and codefendants at the crime scene, it established that they were armed and it
indicated the sequence of events leading up to Copeland's shootings. Despite her recantation at
trial, her previous inconsistent statement, her grand jury testimony, was admitted into evidence.
Moreover, as we noted in our previous order, Floyd's recantation at trial was reasonably
explained by the fact that codefendant Randall had been her boyfriend and she knew petitioner
and codefendant Nelson as well. See People v. Russell Armfleld and Kimothy Randall, No. 1-072902 & No. 1-07-2903 (2009).

Similarly, Prosper's recanted grand jury testimony corroborated

the eyewitness testimony in the case and her recantation was most likely due to the fact that she
is codefendant Randall's sister. In addition, the evidence established that petitioner and
codefendants were involved in an earlier shooting of Copeland's and Robinson's cars just hours
before Copeland's murder, and one of the weapons used in the murder was found in a car
occupied by codefendant Nelson.
K 32

As we previously held on direct appeal, and upon reviewing the record, we find that the

evidence of petitioner's guilt was substantial. See People v. Russell Armfleld and Kimothy
Randall, No. 1-07-2902 & No. 1-07-2903 (2009). Even if trial counsel's performance was
unreasonable for the failing to request the redaction of Floyd's grand jury testimony, for failing
to move to exclude the testimony of a substantive shooting involving codefendant Nelson, and
for failing to object to the State's alleged improper closing argument, petitioner cannot establish
that there is a reasonable probability that the outcome of his trial would have been different.

11

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 12 of 15 PagelD #:80
No. 13-0010
Accordingly, petitioner did not establish that his trial counsel provided ineffective assistance of
counsel.
f 33

Petitioner next argues that postconviction counsel provided him with ineffective

assistance by failing to amend his postconviction petition to include a claim of ineffective
assistance of appellate counsel for failing to argue on direct appeal that the trial court erred in
denying petitioner's motion for mistrial based on the prosecutor's inflammatory and prejudicial
closing argument.
H 34

Under the Act, petitioners are entitled to a "reasonable" level of assistance of counsel.

People v. Profit, 2012 IL App (1st) 101307, ^ 18; People v. Perkins, 229 Ill. 2d 34, 42 (2007).
To ensure this level of assistance, Rule 651(c) imposes three duties on appointed postconviction
counsel. Perkins, 229 Ill. 2d at 42. Pursuant to the rule, either the record or a certificate filed by
the attorney must show that counsel (1) consulted with the petitioner to ascertain his contentions
of constitutional deprivations; (2) examined the record of the trial proceedings; and (3) made any
amendments to the filed pro se petitions necessary to adequately present the petitioner's
contentions. Ill. S.Ct. R. 651(c) (eff. Dec. 1, 1984); Perkins, 229 Ill. 2d at 42. The purpose of
the rule is to ensure that postconviction counsel shapes the defendant's claims into a proper legal
form and presents them to the court. Perkins, 229 Ill. 2d at 44. Substantial compliance with
Rule 651(c) is sufficient. People v. Richardson, 382 Ill. App. 3d 248, 257 (2008).
35

The filing of a Rule 651(c) certificate gives rise to a rebuttable presumption that post­

conviction counsel provided reasonable assistance. In the instant case, counsel filed a Rule
651(c) certificate. Thus, the presumption exists that petitioner received the representation
required by the rule. It is defendant's burden to overcome this presumption by demonstrating his
attorney's failure to substantially comply with the duties mandated by Rule 651(c). Id.

12

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 13 of 15 PagelD #:80
No. 13-0010
f 36

Petitioner does not argue that postconviction counsel failed to consult with him about

allegations contained in his petition or failed to read those portions of the record relevant to his
claims. Rather, petitioner contends that postconviction counsel should have amended the
petition to include a claim of ineffective assistance of appellate counsel to save the issue from
forfeiture. Petitioner claims that appellate counsel should have raised on appeal the claim that the
trial court erred in denying his motion for mistrial when the prosecution made improper,
prejudicial comments that deprived him of a fair trial. According to petitioner, the State made
improper comments in closing and rebuttal that petitioner and his codefendants invoked fear and
terror in their neighborhood causing several witnesses to be reluctant to come forward and testify
at trial.
T1 37

In assessing claims of ineffective assistance of appellate counsel, the court follows the

two-pronged test of Strickland v. Washington, 466 U.S. 668. To succeed on a claim of ineffective
assistance of appellate counsel, petitioner must show that the failure to raise a particular issue
was objectively unreasonable and that his appeal was prejudiced by the omission. People v.
Williams, 209 Ill. 2d 227, 243 (2004). "Appellate counsel is not obligated to brief every
conceivable issue on appeal, and it is not incompetence of counsel to refrain from raising issues
which, in his or her judgment, are without merit, unless counsel's appraisal of the merits is
patently wrong." People v. Easley, 192 Ill. 2d 307, 329 (2000). Thus, a petitioner has not
suffered prejudice from appellate counsel’s decision not to raise certain issues on appeal unless
such issues were meritorious. Easley, 192 Ill. 2d at 329.
H 38

In presenting a closing argument, the prosecutor is allowed a great deal of latitude and is

entitled to argue all reasonable inferences from the evidence. People v. Jones, 2014 IL App (3d)
121016, Tf 37. The prosecutor is allowed to comment on the evidence and reasonable inferences

13

Case: l:17-cv-03331 Document #: 12-2 Filed: 11/16/17 Page 14 of 15 PagelD #:80
No. 13-0010
from the evidence, including a defendant's credibility or the credibility of the defense's theory of
the case. Id. We review a trial court's denial of a motion for mistrial for abuse of discretion.
People v. Walker, 386 Ill. App. 3d 1025, 1030 (2008)
K 39

The trial court did not abuse its discretion in denying petitioner's motion for mistrial.

Upon reviewing the record, we note that the State never argued that petitioner individually or the
defendants threatened any witness in particular. Rather, the State argued that petitioner's actions
in the neighborhood on the night of the shooting, along with that of codefendants created a
general fear in the community which caused several witnesses to be reluctant to come forward
and testify. The terror and fear in the neighborhood comments were, however, based on the
evidence at trial. Specifically, the evidence established at 6:00 on the night when the crime
occurred, a few hours before the shooting murder of A1 Copeland occurred, petitioner was in
close proximity with codefendants, acting as a lookout for codefendants who shot at Copeland's
and Robinson's cars. Notably, the shootings did occur on a public street during daylight hours
and it is certainly reasonable to infer that being shot at, as witness Robinson was, with a 1-yearold child in the car, is an intimidating and fearful event.
1 40

In addition, petitioner claims that the State made improper comments to install fear in the

jurors when arguing that defendants shoot at people in broad daylight close to the courthouse.
However, the comments were based entirely on the evidence introduced at petitioner's trial when
Walker testified that codefendant Nelson and three others shot at her while she was driving to
Cook County jail in the vicinity of the criminal courthouse. Accordingly, the comments were
based on the evidence and reasonable inferences drawn therefrom were proper. See People v.
Cox, 377 Ill. App. 3d 690, 708 (2007) (not an error for the State to argue that two witnesses and

14

Case: l:17-cv-03331 Document#: 12-2 Filed: 11/16/17 Page 15 of 15 PagelD #:80
No. 13-0010
their families "still lived in the area where the shooting occurred and that the kind of violence
that defendant perpetrated out there impacts the community").
If 41

Moreover, even if the State's comments, or some of them, were improper, they were

cured by the trial court's sustaining several defense objections, informing the jury that arguments
are not evidence and must be disregarded if not supported by the evidence, or giving the jury
proper instructions on the law to be applied. See People v. Simms, 192 Ill. 2d 348, 398 (2000).
Furthermore, in the light of the overwhelming evidence of his guilt, petitioner did not establish
that he was substantially prejudiced by the remarks such that it is impossible to say whether or
not a verdict of guilt resulted from those comments. See People v. Henderson, 142 Ill. 2d 258,
323 (1990). Therefore, the trial court did not abuse its discretion when it denied petitioner's
motion for mistrial based on such remarks and appellate counsel was not ineffective for failing to
raise this issue when it was not meritorious. We conclude that defendant did not show that
postconviction counsel was ineffective in failing to preserve the alleged error for review, or that
appellate counsel was ineffective in failing to challenge the remarks on appeal.
H 42

In sum, we find that the circuit court did not err in dismissing petitioner's second stage

potconviction petition when petitioner did not make a substantial showing of constitutional
violation for his claims of ineffective assistance of trial, appellate and postconviction counsel.
143

CONCLUSION

144

Based on the foregoing, we affirm.

145

Affirmed.

15

